      FISCAL YEAR 2009


 MEDICARE-ELIGIBLE RETIREE
     HEALTH CARE FUND

AUDITED FINANCIAL STATEMENTS

                   November 6, 2009
                                            DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND
     FISCAL YEAR 2009
   AUDITED FINANCIAL
       STATEMENTS

                          Table of Contents

Management’s Discussion and Analysis ......................................................... 1

Principal Statements ...................................................................................... 14

Notes to the Principal Statements .................................................................. 19

Other Accompanying Information ................................................................. 39

Independent Auditors’ Reports ...................................................................... 46




                                                  i
          DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND




MANAGEMENT DISCUSSION AND
       ANALYSIS




            1
                                                           Management’s Discussion And Analysis

                        DoD MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND
                             MANAGEMENT’S DISCUSSION AND ANALYSIS

                                YEARS ENDED SEPTEMBER 30, 2009, AND 2008

Description of the Reporting Entity

The reporting entity is the Department of Defense (DoD) Medicare-Eligible Retiree Health Care Fund (the “Fund”
or MERHCF). The Fiscal Year (FY) 2001 National Defense Authorization Act (NDAA) directed the establishment
of the Medicare-Eligible Retiree Health Care Fund to pay for Medicare-eligible retiree health care beginning on
October 1, 2002. Prior to this date, care for Medicare-eligible beneficiaries was financed through annual
Congressional appropriations for space available care in Military Treatment Facilities (MTFs). The Fund covers
Medicare-eligible beneficiaries, regardless of age. In the context of the Fund, hereafter the term “Medicare-eligible
beneficiaries” is used to refer to Medicare-eligible beneficiaries who are related to retirees (i.e., retirees themselves,
dependents of retirees, and survivors).

The NDAA also established an independent three-member DoD Medicare-Eligible Retiree Health Care Board of
Actuaries appointed by the Secretary of Defense. The Board is required to review the actuarial status of the Fund, to
report annually to the Secretary of Defense, and to report to the President and the Congress on the status of the Fund
at least every four years. The DoD Office of the Actuary provides all technical and administrative support to the
Board.

Within DoD, the Office of the Under Secretary of Defense (OUSD) for Personnel and Readiness (P&R), through the
Office of the Assistant Secretary of Defense (OASD) for Health Affairs (HA) TRICARE Management Activity
(TMA), has as one of its missions operational oversight of the Defense TRICARE Health Delivery System,
including management of the Fund. TMA management responsibilities include accounting for, documenting, and
projecting annual budget distribution requirements (both purchased care claims demands and MTF prospective
payments for anticipated care provided in the direct care system), oversight of claims processors,
monitoring/management of the Improper Payments Information Act, and preparation of financial statements and
footnotes. The Defense Finance and Accounting Service (DFAS) provides accounting and investment services for
the Fund.

In FY 2009, the Fund authorized approximately $8.7 billion (B) in total health care services, civilian providers
($7.0B), military medical treatment facilities ($1.3B), and Military Service Personnel Accounts ($0.4B), on behalf
of Medicare eligible retirees, retiree dependents, and survivors.

In FY 2008, the Fund initially authorized approximately $8.4B in total health care services, civilian providers
($6.7B), military medical treatment facilities ($1.3B) and Military Service Personnel Accounts ($0.4B), on behalf of
Medicare eligible retirees, their dependents, and survivors.

                                Final Fiscal Year Requirements and Funding Plan

                                                 Operations &
                         Purchased Care                              Military Personnel
    Fiscal Year                                  Maintenance                                 Final (Billions)
                           (Billions)                                    (Billions)
                                                  (Billions)
       2009                   $7.0                  $1.3                     $0.4                   $8.7
       2008                   $6.7                  $1.3                     $0.4                   $8.4

The Fund receives income from three sources:
    1. An annual Treasury payment made on behalf of the Services at the beginning of the year based on average
       budgeted force strengths
    2. Annual payments from the Treasury to amortize the unfunded liability, and
    3. Investment income




                                                            2
                                                         Management’s Discussion And Analysis

During the last two years of the Fund’s operation, income was received from the following sources:

                                           MERHCF Funding Sources

                              Treasury Unfunded
                                                             Normal Cost
                              Actuarial Liability                                  Interest on Investments
      Fiscal Year                                            Contribution
                               (UAL) Payment                                              (Billions)
                                                              (Billions)
                                  (Billions)
         2009                       $10.7                       $10.6                        $1.2
         2008                       $12.9                       $11.5                        $8.2

No accounts of the Fund have been excluded from the Fund’s financial statements.

Medicare-Eligible Retiree Health Care Plan of Benefits

If beneficiaries age 65 and over cannot obtain care in a military medical treatment facility, they can receive
essentially no charge civilian care through the TRICARE for Life (TFL) program. With this program, TRICARE
serves as the final payer for Medicare covered benefits, and first payer for TRICARE benefits that are not covered in
the Medicare or Other Health Insurance programs.

TFL covers Medicare-eligible retirees 65 years of age or older, including retired guardsmen and reservists and
Medicare-eligible family members and survivors. A beneficiary must be eligible for Medicare Part A and enrolled
in Medicare Part B. The Medicare-eligible retirees and family members of the non-DoD Uniformed Services (Coast
Guard, Public Health Service, and National Oceanic and Atmospheric Administration) are also eligible for these
benefits.

The TRICARE Senior Pharmacy Program authorizes eligible beneficiaries to obtain low-cost prescription
medications from the TRICARE Mail Order Pharmacy (TMOP) and TRICARE network and non-network civilian
pharmacies. Beneficiaries may also continue to use military hospital and clinic pharmacies, at no charge. The
pharmacy program is available to beneficiaries age 65 and over.

Finally, DoD beneficiaries, including Medicare-eligible beneficiaries, in specific locations where Designated
Provider Program (DPP), formerly the Uniformed Services Family Health Plan (USFHP), facilities are available,
may enroll in capitation rate plans. These plans include inpatient and outpatient services and a pharmacy benefit.
The capitation rate is paid by DoD. Beneficiaries who choose enrollment in these plans are ineligible for care in
MTFs as well as benefits under the TRICARE for Life and Senior Pharmacy programs.

Health Care Purchased From Civilian Providers

In accordance with Department of Defense Instruction (DoDI) 6070.2, “Department of Defense Medicare Eligible
Retiree Health Care Fund Operations”, dated July 19, 2002, the TMA reports daily obligations to the Fund for
purchased care provided in the civilian sector. Daily claims are validated by the voucher edit procedures required by
the TRICARE/CHAMPUS Automated Data Processing Manual 6010.50-M, dated May 1999, to ensure that only
costs attributable to Medicare-eligible beneficiaries are included in payments drawn from the Fund.

At the end of each month, claims processing costs are reconciled against monthly distribution estimates and any
over and/or under charged amounts are applied to the estimated requirement for the following month. During the
month of September, as fiscal year-end approaches, more frequent reconciliation between charged accounts and
available funds may occur and processing can continue up to a predetermined cut-off date established by TMA in
coordination with DFAS-Indianapolis (DFAS-IN).

TMA reports obligations to the Fund for the estimated DPP obligation amount based on the contract-specific
capitation rates for Medicare-eligible beneficiaries enrolled for each DPP hospital contract option period twice per
year, upon the commitment of funds and prior to the start of the option period. Each DPP hospital’s reported
enrollment is used to reconcile contracted enrollment estimates for Medicare-eligible beneficiaries. At the end of



                                                         3
                                                           Management’s Discussion And Analysis

each option period, total charges are reconciled against the estimate and any over and/or under charged amounts are
applied to the estimated requirement for the following option period.

At the beginning of each Fiscal Year, a new Funding Authorization Document (FAD) for the TFL/TRICARE Senior
Pharmacy purchased care expenditure limit is provided to the TMA Contract Resource Management (CRM)
Division. By agreement with DFAS-IN, disbursement transactions are provided by email the day prior to payment
processing. DFAS-IN uses these estimates to ensure sufficient funds are available for payment from the Fund for
daily transactions. The final purchased care payments estimated for FY 2009 are approximately $7.0B as compared
to $6.7B in FY 2008.

TMA uses a TRICARE Dual Eligible Fiscal Intermediary Contract (TDEFIC) awarded to Wisconsin Physician
Services (WPS) for purposes of processing all claims supported by the Fund, regardless of the geographic region in
which care was received. Dual-eligibility refers to health care users who are both DoD beneficiaries (retired,
dependents of retired, and survivors) and Medicare-eligible beneficiaries. Having a single Fiscal Intermediary (FI)
to process all dual-eligible claims ensures greater confidence in uniformity and consistency of claims adjudication.
Further, cost savings are realized with the claims administrative processing fees. The TDEFIC contract stipulates a
payment of $0.71 per unit for electronic claims and $3.67 for paper claims.

Payment For Health Care Provided In MTFs

TMA annually develops prospective payment amounts for care estimated to be provided in MTFs to Medicare-
eligible beneficiaries. The prospective payment amounts are calculated for each MTF and include both Military
Personnel (MILPERS) and Defense Health Program (DHP) Operations and Maintenance (O&M) costs. TMA
provides a memo to DFAS-IN with the payment amounts by Service for MILPERS and DHP O&M that is reported
on the Standard Form 1081, Voucher and Schedule of Withdrawals and Credits by DFAS-IN.

The prospective payment amounts are based on costs reported by the MTF’s Medical Expense and Performance
Reporting System (MEPRS) and patient encounter data for the most recent fiscal year for which data is complete at
the time the calculations are prepared. TMA develops, in coordination with the Military Departments and Office of
the Under Secretary of Defense Comptroller (OUSD(C)), MTF-specific rates in accordance with DoDI 6070.2,
dated July 19, 2002. MEPRS cost data are recorded separately for MILPERS and O&M components per clinical
workload. These amounts are inflated to the year of execution using Service-provided budget data, and standard
OMB inflation rates listed in the President’s Budget applicable to those years. MEPRS data are recorded and
maintained by the Services in accordance with DoD 6010.13-M, “Medical Expense and Performance Reporting
System for Fixed Military Medical and Dental Treatment Facilities,” dated April, 2007.

OUSD(C) distributes MTF prospective payment amounts based on the calculated annual total program amount to
the Services for MILPERS costs and to TMA for DHP O&M costs. TMA, in turn, distributes DHP funds to the
Services for execution. OUSD(C) includes financial authority in the DHP Expense Operating Budget to finance the
annual financial plan requirement of the prospective payment.

When the year of execution is completed and the associated workload and cost data are available, TMA conducts an
execution review in coordination with OUSD(C) and the Services. A comparison of prospective payment amounts
to actual workload and costs is accomplished in accordance with DoDI 6070.2, dated July 19, 2002.

The prospective O&M payment for MTF-provided care to Medicare-eligible beneficiaries in FY 2009 was $1.3B
and also approximately $1.3B in FY 2008. While the unit costs of inpatient and outpatient services have risen
slightly, utilization of these services has continued to decline at a greater rate. The prospective payment for
MILPERS expenditure for care provided in the MTFs to Medicare-eligible beneficiaries remained the same in
FY 2009 ($0.40B).

Performance Measures

The mission of the Fund is to finance, on an actuarially sound basis, liabilities of the DoD and the uniformed
services health care programs for specific Medicare-eligible beneficiaries. There are many ways to measure the
funding progress of actuarially determined accrual funds. The ratio of assets in the Fund to the actuarial liability is a



                                                           4
                                                           Management’s Discussion And Analysis

commonly used fund ratio. As of September 30, 2009, the Fund had net assets available to pay benefits of $148.8B
and an actuarial liability of $509.5B; the funding ratio was 29.2%. As of September 30, 2008, the Fund had net
assets available to pay benefits of $134.3B and an actuarial liability of $500.2B; the funding ratio was 26.8%.
Notwithstanding the effect of other actuarial gains and losses that will occur over time, this ratio is expected to reach
100% once the initial unfunded liability is fully amortized in accordance with a schedule set by the DoD Board of
Actuaries. The 50-year amortization period for the initial unfunded liability is scheduled to end in FY 2052.

Types of Investments

The Fund receives investment income from a variety of Treasury-based instruments such as bills, notes, bonds and
overnight investment certificates. Treasury bills are short-term securities with maturities of less than one year issued
at a discount. Treasury notes are intermediate securities with maturities of one to ten years. Treasury bonds are long-
term debt instruments with maturities of greater than ten years. Overnight certificates are interest-based market
securities purchased from the Treasury that mature the next business day and accrue interest based on the Federal
Reserve Bank of New York survey of reserve repurchase agreement rates.

The Fund also invests in Treasury Inflation Indexed Securities (TIIS) also known as Treasury Inflation-Protected
Securities (TIPS), which are indexed for inflation. TIIS/TIPS are fixed-rate instruments designed to protect against
inflation, and the principal amount is indexed to the consumer price index (CPI) by adjusting the CPI at issuance to
the current CPI; as inflation increases, so does the principal amount and the coupon.

All of these instruments are debt obligations of the U.S Government and are backed by the “full faith and credit” of
the federal government. Debt obligations of the U.S. Government have virtually no risk of nonpayment of principal
and interest at the specified due date.

The Fund receives management oversight from the Department of Defense Investment Board established in
September 2003. The members of the Investment Board are the Director, Defense Finance and Accounting Service;
the Deputy Chief Financial Officer, Office of the Under Secretary of Defense (Comptroller); and a senior military
member, currently the Vice Chief of Naval Operations. The Board reviews the Fund’s law and Department of
Treasury guidelines to ensure compliance with broad policy guidance and public law.

The Investment Board met in September 2009 and considered investment objectives, policies, performance and
strategies with the goal of maximizing the Fund’s investment income and holding investments to maturity. The
Board continues to push the new investment strategy which includes:

   a.) Eliminate the “duration matching strategy” (matching assets to the duration of the liability), since it is not
feasible. The duration of the unfunded actuarial liability is 40+ years while the duration of the securities available to
invest is 24 years, at most.
   b.) Cash Flow
       ▪ Current year cash flow needs maintained in overnights and bills
       ▪ Use a ladder approach for long-term securities
         -- Ninety percent (90%) in TIPS
            --- Start with a six-year ladder (coming back from 2032)
            --- Expand as appropriate for future years
       ▪ Ten percent (10%) in conventional/overnights

In FY 2009, 80% of MERHCF investments were in TIPS, with the remaining investments in one day securities
(7%), notes (10%), and bonds (3%). Projections for FY 2010 are 85% in TIPS, 88% in TIPS for FY 2011, and 90%
in TIPS by 2012. As of the close of FY 2009, approximately 29 percent of the total health care liability was funded.


Status of FY 2008 Audit Findings

The MERHCF independent auditors noted material weaknesses and other discrepancies during the FY 2008
Financial Statement Audit. The material weaknesses center around two issues:




                                                           5
                                                           Management’s Discussion And Analysis

    1.   The lack of a patient-level cost accounting system
    2.   Insufficient evidence that adequate controls exist and have been implemented to ensure the timeliness and
         accuracy of the medical record coding processes at the MTFs

At issue with the lack of a patient-level cost accounting system is the fact the actuarial liability for Medicare-eligible
retiree benefits as of September 30, 2009 and 2008 includes approximately $72.1B (14% of total) and $71.0B (14%
of total), respectively, which reflects the actuarial present value of the projected direct-care costs of benefits to be
provided by MTFs to MERHCF beneficiaries.

Additionally, the reported amounts of program revenues and cost for the year ended September 30, 2009, include
approximately $2.9B and $1.7B, respectively, and for the year ended September 30, 2008, include approximately
$3.3B and $1.7B, respectively, of amounts related to direct care costs. Such MTF-related amounts of direct-care
costs are estimated by the Fund’s actuaries using data extracted from various service-specific financial, personnel,
and workload systems within DoD. With respect to extracted data, the MTFs do not have Federal Accounting
Standard Advisory Board (FASAB) compliant, transaction-based accounting systems and cannot report the costs of
an individual patient’s care.

True patient-level cost accounting systems are currently not available within TRICARE. In lieu of such a system,
the DoD has developed a cost allocation tool, the Medical Expense and Performance Reporting System (MEPRS),
which enables MTFs to allocate all costs associated with the daily operation of the facility into the inpatient,
outpatient, dental, and ancillary service cost centers. Average costs per weighted workload unit can then be
computed for various patient care activities.

The average costs per weighted workload unit are then applied to specific care provided to specific patients by
reviewing the Standard Inpatient Data Record (SIDR) and Standard Ambulatory Data Record (SADR) reported in
the MHS Data Repository (MDR). The SIDRs and SADRs are prepared for each patient encounter and contain
patient-specific information, to include name, Social Security Number, sponsor or dependent status, and Medicare
eligibility. Further, the SIDRs and SADRs reflect the diagnosis and any procedures performed on the patient for
that specific encounter. The average costs per weighted workload unit computed in MEPRS is then applied against
the specific data contained in the SIDRs and SADRs to determine an average cost for the specific care provided to a
specific patient. Estimates of the weighted workload provided to Medicare-eligible beneficiaries are calculated for
each MTF based on historical experience. When the weighted workload costs are applied against the projected
workload volume for each MTF, a prospective payment distribution plan can be computed for each MTF for the
next fiscal year.

While inpatient and ambulatory encounter costs are weighted at the MTF level as described above, MTF outpatient
pharmacy costs represent the largest cost driver for the actuarial liability. The reconciliation tasks performed by
TMA management’s support contractor have also assessed and documented the operation of Pharmacy Data
Transaction Service (PDTS), data to support both the prospective payment and calculation of the actuarial liability.

The prospective payments made to the MTFs are reconciled with actual workload activity after the close of the fiscal
year. The results of the reconciliation are used to adjust projections of MTF workload levels and costs for the future
prospective payment distribution plan. The results of the reconciliation will not be used to make adjustments to the
current prospective payment distribution plan either during execution year activities or to a specific distribution
subsequent to the close of the fiscal year’s operation.

Issues with the prospective payment process include validating/reconciling financial data prior to its input into the
MEPRS cost allocation process, archiving MEPRS data at the close of each month, and reconciling in a timely
manner the fiscal year prospective payment plan.




                                                            6
                                                         Management’s Discussion And Analysis

Actions Taken

Since FY 2003, when the Fund was established, MERHCF management has attempted to resolve auditor-identified
material weaknesses through the development of key milestone initiatives. These initiatives were established and
managed by TMA leadership and intended to serve as work-arounds to address the Services’ financial systems’
deficiencies. The material weaknesses are associated with the computation of that portion of the MERHCF health
care liability involving the care provided to Medicare-eligible beneficiaries in the MTFs.

Unfortunately, the milestone initiatives have not produced the desired results in the projected time frame. To
mitigate risks associated with these weaknesses, and to affect appropriate corrective actions, we have developed a
revised financial improvement plan with key milestones to incorporate a methodology to use per capita rates to
prospectively compensate the Services each year for health care provided to Medicare-eligible beneficiaries in DoD
MTFs. This methodology will also be used by the Office of the Actuary to compute the MERHCF health care
liability. The use of per capita rates will enable the MERHCF to eliminate the need to rely on MTFs for auditable
financial information and accurate coding of medical records and, thus, move to an unqualified audit opinion
independent of the Services’ receipt of unqualified audit opinions on their financial statements.

Creating a new model is very complex and resource intensive. The model must comply with actuarial laws and
requirements as well as satisfy accounting, GAO, and Congressional standards. Data on which the new model will
be developed must be collected over time for several fiscal years with appropriate adjustments, as trends dictate.
The initial data collected from the Center for Medicare and Medicaid Services (CMS) by the DoD Office of the
Actuary contained 2.2 million records on Medicare-eligible retirees and dependents. Additional time will be
required to collect industry benchmark data, analyze the data, and develop and test the model. After testing,
modifications may also be required, therefore, the time table for implementation of the per capita rate methodology
is for the close of FY 2013.

Direct care costs developed under this proposed method will still retain the current plan design wherein Medicare
does not reimburse DoD for care received in MTFs.

Computation of Incurred Claims Reserve

The actuarial determination of the Fund’s liability for Incurred But Not Reported (IBNR) claims for purchased care
for the Fund’s beneficiaries relies on data files provided by TMA to the DoD Office of the Actuary (OOA). Due to
the lack of a fully integrated financial management system to support the Defense Health System, certain data are
provided to the OOA from health care operational sources, rather than from the accounting and financial records of
claims payment activity.

The Contract Resource Management (CRM) Division in Aurora, Colorado, monitors claims processing activities
performed by the TDEFIC fiscal intermediary, WPS, in support of purchased care activities for Medicare-eligible
beneficiaries. To better monitor purchased care claims processing and mitigate the potential for an undetected large
increase in claims backlogs occurring in the future, MERHCF management has developed a quarterly purchased
care claims backlog metric to report to OUSD(C).

Each quarter MERHCF estimates the IBNR purchased care claims liability. IBNR represents health care received
by Medicare-eligible beneficiaries for which DoD has not yet received a claim. The purchased care claims
processing metric monitors the completeness of the data used for the IBNR liability calculation. The metric is
calculated by dividing the liability from claims on hand that is actually used in the IBNR calculation (without any
backlogged claims) by the liability that includes any claims backlogged at the time of the IBNR calculation.

By their nature, IBNR calculations need regular and normally distributed data. The data does not have to be
100 percent complete, but must include a percentage of claims large enough to represent the normal claims universe,
and most importantly, the degree of claims completeness should remain relatively constant over time.

The goal is to ensure the IBNR calculation is based upon no less than 85% of the liability contained on all processed
and backlogged claims. It is anticipated that 8% to 12% of available monthly claims will not be included in the
IBNR calculation due to the cutoff of processed claims by 10:00 am EST on the last business day of the month. The



                                                         7
                                                          Management’s Discussion And Analysis

cutoff was established to ensure IBNR calculations could be completed in time to meet reporting requirements. For
FY 2008 and again in FY 2009, the IBNR calculation included 100% of available monthly claims.

Legislative Proposals

The 2007 National Defense Authorization Act (NDAA) included several relevant sections concerning the
MERHCF. Section 592 of the Conference Report, “Revision in Government Contributions to Medicare-Eligible
Retiree Health Care Fund,” excluded from the term “members of the uniformed services on active duty” cadets at
the United States Military Academy, the United States Air Force Academy, or the Coast Guard Academy or
Midshipmen at the United States Naval Academy. This change (with other things being equal), will reduce the
Board of Actuaries annually calculated normal cost contribution and the health care liability. The elimination of
cadets and midshipmen from the calculation of the active duty portion of the normal cost contribution and the health
care liability took effect beginning in FY 2008.

Section 703 of the 2008 NDAA states any prescription filled on or after January 28, 2008 through the TRICARE
Retail Pharmacy Network shall be treated as an element of the DoD for purposes of procurement of drugs by Federal
agencies. The Veterans Health Care Act of 1992, established the Federal Ceiling Prices (FCPs) of covered
pharmaceuticals requiring a minimum 24% discount off non-federal average manufacturing prices. Since the
beginning of the FCP program, outpatient pharmaceuticals provided by DoD through MTF pharmacies have been
subject to FCPs, as have those under the TMOP program since it began. This legislation addresses the disparity with
the retail pharmacy program.

The effect of this law is that for all prescriptions filled on or after January 28, 2008, all covered drug TRICARE
Retail Pharmacy Network prescriptions are subject to FCPs. After a period for public comments under the rule
making process of the Administrative Procedure Act, DoD implemented this law through the promulgation of a
Final Rule (32C.F.R. § 199.21(q), 74 Federal Register 11,279), published March 17, 2009, and effective May 26,
2009. The two primary provisions of the Final Rule are as follows:

          ● Pharmaceutical manufacturers are required to sign a written agreement to honor FCPs as a condition of
eligibility for preferred approved brand name drug status (Tier 2) on the Uniform Formulary (UF) and unrestricted
access through retail network pharmacies. Consistent with standard commercial practice in the retail pharmacy
sector and the established TRICARE program of voluntary retail refunds, FCPs are implemented through refunds of
the amount above FCPs the manufacturer was paid when the drugs entered the commercial stream, typically through
a sale to a distributor.

         ● For prescriptions not covered by a UF pricing agreement, FCPs still apply under the statute, but
collection of the refund is subject to waiver or compromise, including a potential waiver of all collections if the
manufacturer withdraws its drug from the TRICARE pharmacy benefits program. Waiver and compromise requests
are considered based on the established TRICARE procedures under the Federal Debt Collection Act (32 C.F.R.
§ 199.11), which generally include Justice Department approval to waive or compromise a significant amount.

Status of Implementation of Statute and Final Rule.

Since the effective date of the Final Rule, the status of implementation on the primary provisions is as follows:

          ● Agreements with manufacturers have now been signed prospectively covering more than 90% of the
dollar value of all potential FCP-based refunds. Additional agreements are expected in the coming weeks, which
should raise the amount covered well above 90%. The effective dates of these prospective agreements are generally
dates in June or July 2009.

        ● For prescriptions not covered by these agreements, particularly prescriptions filled between January 28,
2008, and the May 26, 2009, effective date of the Final Rule, most pharmaceutical manufacturers have requested
waiver of any refunds. No company has requested removal of any of its drugs from TRICARE Pharmacy Benefits
Program coverage. The waiver requests that have been submitted are pending review.




                                                           8
                                                         Management’s Discussion And Analysis

Litigation Pending

Pending is litigation initiated by pharmaceutical manufacturers, acting through an association called The Coalition
for Common Sense in Government Procurement. This litigation seeks to invalidate the Final Rule and obtain a
Court order prohibiting DoD from collecting any refunds. The Government’s position in the litigation is to defend
all provisions of the Final Rule. This case is pending in the United States District Court for the District of
Columbia. A decision from the Court is expected before the end of the calendar year 2009 (although appeals or
other circumstances could defer a conclusive resolution).

         ● Prescriptions filled from January 28, 2008, through March 17, 2009, occurred prior to the publication of
the DoD Final Rule and before the signing of pricing agreements with the pharmaceutical manufacturers now
required by the Final Rule. Again, the Final Rule was issued on March 17, 2009, with an effective date of May 26,
2009. The majority of drug companies requested a waiver of refunds for these prescriptions on the grounds the
pharmaceutical manufacturers do not believe DoD has legal authority to require collection. The manufacturers
believe DoD’s attempt to require refunds for this period is an impermissible retroactive regulation. The Government
disagrees, which is a major issue in the pending lawsuit. Due to the pendency of the waiver requests and lawsuit,
the DoD and TMA General Counsels recommended TMA not issue demand letters (invoices) nor establish accounts
receivable for the refunds during the period January 28, 2008, through March 31, 2009.

          ● Refunds were requested for prescriptions filled from April 1, 2009, through June 30, 2009, in the form of
computer files by manufacturer. The Final Rule did not take effect until May 26, 2009, and the Government spent
much of June negotiating pricing agreements. Consequently, most of the utilization during this quarter was not
under pricing agreements. Refunds for this quarter are not due until October 10, 2009. Demand letters (invoices)
were not issued with the utilization data sent to the drug manufacturers in July 2009. However, it is the General
Counsels’ recommendation that TMA record accounts receivable for the refund amounts reflected in the flat files
sent to each of the pharmaceutical manufacturers for the 3rd Quarter, FY 2009.

                  ▪ The issuing of invoices starts the clock for the accrual of interest on the debt. However, an
agency always has authority to waive interest payments. It is the view of the DoD and TMA General Counsels that
the pending litigation provides a basis to defer the start date of interest. Additionally, the General Counsel is
concerned if DoD had to return refunds collected based on a final court ruling, DoD would not pay interest for the
period DoD held the money. Therefore, DoD’s demand for interest payment before the Court decides the issue
might appear to the Court to be unfair.

         ● For prescriptions filled during the 4th Quarter, FY 2009, TMA will issue invoices with the utilization data
submitted to the pharmaceutical manufacturers. These invoices will be submitted in the latter part of October 2009,
with payment due 70 days later – roughly the close of calendar year 2009. A Court ruling should be rendered by
then; so DoD can react with any adjustments as necessary. At the time invoices are sent to the pharmaceutical
manufacturers, the DoD and TMA General Counsels recommend TMA record a like amount as accounts receivable.

         ● The collectability of the refunds for the 3rd and 4th Quarters, FY 2009, is almost certain once the legal
issues are resolved. Minor changes may be required due to adjustments in the calculation of the receivable amount
due from various manufacturers and/or the financial viability of some manufacturers. As such, an allowance for
doubtful accounts will be assessed at 10% for each of the last two quarters of FY 2009. TMA expects to modify this
allowance once historical evidence becomes available from which to base a calculation on actual collections as the
program matures.

          ● It is DoD’s position regarding the pending lawsuit involving Federal Ceiling Price drug refunds that the
agency’s actions are legally supportable, and our legal arguments should prevail. However, as with any litigation,
there are risks the Court may rule against the Government. If that occurs, and one of the remedies ordered by the
Court involves setting aside the TRICARE regulation on federal pricing refunds, the Government could face the
issue of refunding those collections related to the mandatory pricing agreements ($38.1 million). Given that
possibility, the TMA General Counsel believes it is prudent and has recommended TMA consider disclosing a
possible contingent liability of $38.1 million in the footnotes to the MERHCF financial statements.




                                                          9
                                                         Management’s Discussion And Analysis

         ● Given the DoD Final Rule had not been published in FY 2008, and that further litigation was possible,
the MERHCF Board of Actuaries decided at the July 2008 Board meeting to apply only half the estimated savings to
the MERHCF actuarial liability assumptions to the FY 2008 calculation of the liability. As a result, the conservative
impact of this legislation was a change in the actuarial assumption of $35.3 billion on the MERHCF actuarial health
care liability. Since the Final Rule was published in FY 2009 and approximately 93% of the pricing agreements
with the pharmaceutical manufacturers have been signed, the Board of Actuaries did not allow the potential of legal
outcomes to influence their actuarial assumptions. Consequently, of all the actuarial assumptions used in the
calculation of the FY 2009 actuarial health care liability, $24.8 billion were associated with the retail pharmacy
Federal Ceiling Price refund.

Voluntary Agreements for TRICARE Retail Network Rebates (VARRs)

TMA initiated a new retail pharmacy rebate program during the 2nd Quarter, FY 2007, Voluntary Agreements for
TRICARE Retail Network Rebates (VARRs). Manufacturers may offer rebates to the DoD for pharmaceutical
agents dispensed through the TRICARE Retail pharmacy network. There are two types of VARRs.

        1.   The Uniform Formulary VARR (UF-VARR) is contingent upon pharmaceutical agents being
             included on the 1st (generic drugs) or 2nd (formulary brand drugs) tiers of the DoD Uniform Formulary.
        2.   The Utilization VARR (VARR (Utilization)) is based solely on utilization of the pharmaceutical
             agent(s) dispensed through the TRICARE Retail Pharmacy Network. There is no association between
             formulary placement and an offer of a rebate. The rebates will apply to all prescriptions dispensed for
             the National Drug Class (NDC) listed on an accepted VARR to a DoD beneficiary through the
             TRICARE Retail Pharmacy Network.

As of September 30, 2008, the MERHCF received a total of $110.5M in pharmacy retail network rebates under both
VARR programs. In FY 2009, receipts from both VARR programs were $132.9M.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of operations for
the MERHCF pursuant to the requirements of the Chief Financial Officers (CFO) Act of 1990. While the statements
have been prepared from the books and records of the MERHCF in accordance with the Generally Accepted
Accounting Principles (GAAP) for Federal entities and the formats prescribed by OMB, these statements are in
addition to the financial reports used to monitor and control budgetary resources which are prepared from the same
books and records. The statements should be read with the realization they are for a component of the U.S.
Government, a sovereign entity.

Comparative Financial Data

The following table presents comparative financial statement information for the MERHCF.




                                                         10
                                                                       Management’s Discussion And Analysis


                                                Medicare-Eligible Retiree Health Care Fund
                                                    Analysis of Financial Statements
                                             for the years ended September 30, 2009, and 2008
                                                              ($ In Thousands)
                                                                                                                            Difference
Consolidated Balance Sheet                                                                    2009            2008           Increase/
                                                                                                                            (Decrease)
Investments (Intra-Governmental Securities)
- Revenue from Treasury payments and Service contributions excess to current year                                            $14,111,816
health care benefit payments is invested in Treasury securities                            $148,403,475   $134,291,659              11%
Liabilities Not Covered by Budgetary Resources
                                                                                                                             ($4,638,450)
 - Represents difference between actuarial liability for future benefit payments and       $363,616,192   $368,254,642
                                                                                                                                      1%
current assets
Accounts Receivable (A/R), Public
A/R associated with Mandatory Agreement Retail Refund (MARR) pharmacy                                                             $412,200
program                                                                                       $424,686          $12,486            3,302%
Accounts Payable (Non-Federal)                                                                                                    ($78,348)
                                                                                               $60,081        $138,429               (57%)
Military Retirement and Other Federal Employment Benefits
 - Represents actuarial liability of future health care benefit and incurred-but-not-                                         $9,467,605
reported (IBNR) liability                                                                  $510,286,785   $500,819,180               2%

Statement of Net Cost
Net costs of operation
- Changes in computation of actuarial health care liability are the major contributor to                                    ($35,953,647)
changes in net costs of operation                                                            $5,133,333    $41,086,980             (88%)

Statement of Budgetary Resources
Undelivered orders                                                                                                               $10,012
                                                                                               $50,298          $40,286             25%
Net Outlays                                                                                                                   $9,465,471
                                                                                           ($3,394,795)   ($12,860,266)             74%


           Investments – Intra-Governmental Securities

           Total Intra-governmental Securities, Net Investments, for MERHCF increased $14.1 billion, 11%. This increase is
           primarily the result of investing annual contributions from the U.S. Treasury and the Uniformed Services (Army,
           Navy, Air Force, Marine Corps, U.S. Public Health Service, National Oceanographic and Atmospheric
           Administration, and the U.S. Coast Guard) net of current disbursements for benefits paid. Investment of these funds
           has a cumulative effect with an expectation that invested balances will continue growing to cover the unfunded
           portions of future benefits. The MERHCF purchased $15.3 billion in long-term securities during FY 2009.

           Liabilities Not Covered by Budgetary Resources

           Total Liabilities Not Covered by Budgetary Resources decreased $4.6 billion (1%). This change is primarily
           attributable to an increase of $14.1 billion in investments offset by an increase in the actuarial liability of $9.3
           billion.

           Accounts Receivable, Public

           Accounts Receivable, Public, increased $412.2 million. This increase was primarily due to the implementation of
           the Mandatory Agreement Retail Refund (MARR) Pharmacy Program. MARR receivables ($402.6 million) were
           recorded as of September 30, 2009: 3rd Quarter, FY 2009, totaled $200.1 million, and 4th Quarter, FY 2009, totaled
           $202.5 million.



                                                                      11
                                                           Management’s Discussion And Analysis


On March 17, 2009, the Department of Defense (DoD) published a Final Rule (32 C.F.R. § 199.21 (q), 74 Federal
Register 11,279) implementing Section 703 of the National Defense Authorization Act (NDAA) for FY 2008 with
respect to the TRICARE Retail Pharmacy program. According to the Final Rule, the refunds are to be collected
retroactively to the date of the NDAA enactment – January 28, 2008.

Shortly after publishing the Final Rule, a coalition of members from the pharmaceutical industry took legal action to
invalidate the Final Rule and obtain a Court order prohibiting DoD from collecting any refunds whatsoever. The
coalition also argued that if the Final Rule is valid, it should not be effective retroactively to January 2008. This
legal action is currently being reviewed in a Federal Court, with a decision anticipated before the end of the current
calendar year.

Prescriptions filled from January 28, 2008, through March 17, 2009, occurred prior to the publication of the DoD
Final Rule and before the signing of pricing agreements with the pharmaceutical manufacturers now required by the
Final Rule. The majority of drug companies requested a waiver of refunds for prescriptions filled during this time
frame on the grounds they do not believe DoD has legal authority to require them. The DoD disagrees, which is a
major issue in the pending lawsuit. Due to the pendency of the waiver requests and lawsuit, the DoD and TMA
General Counsels recommend that DoD delay issuing invoices and establishing accounts receivable for the refunds
during the period January 28, 2008, through March 31, 2009, until after the Court’s ruling.

The TMA believes the government is in a favorable position to prevail on the legal actions. As such, the
collectability of these refunds is almost certain once the legal issues are resolved. There may be some changes in the
calculation of the amount receivable raised by the manufacturers which will require adjustment of the amount
receivable As such, an allowance for doubtful accounts has been estimated (at 10% ($40.3 million)) and recorded.
The TMA expects to modify this allowance once this program matures and there is a historical basis from which to
project actual collections.

Accounts Payable (Non-Federal)

Non-federal Payables (to the Public) decreased $78.3 million (57%). This decrease is primarily due to the normal
fluctuations in the billings by Express Scripts, the pharmacy contractor, for furnishing the pharmaceuticals
associated with the TRICARE Mail Order Program (TMOP) and the claims paid by the TRICARE Dual-Eligible
Fiscal Intermediary Contractor for purchased inpatient and outpatient care.

Military Retirement and Other Federal Employment Benefits

The total Military Retirement and Other Federal Employment Benefits increased $9.5 billion, (2%) primarily due to
the increase in the FY 2009 actuarial liability. This increase is primarily due to a net gain from changes in key
assumptions that were partially offset by the expected increase in the actuarial liability of $31.1 billion (growth due
to service and interest, and liability released through benefit payments). The actuarial gains and losses due to other
factors decreased the liability by $18.6 billion. Key factors contributing to these “Other Factors” include updated
assumptions to reflect mandated federal ceiling prices for retail prescription drugs and revised mortality
improvement factors. The actuarial gain due to changes in medical trend assumptions decreased the liability by $3.2
billion.

Statements of Net Cost

The Net Cost of Operations decreased $36.0 billion, (88%). This change is due to a $25.8 billion decrease in Total
Costs and a $10.2 billion decrease in Earned Revenue. The change in Total Costs is primarily attributable to the
difference between the FY 2008 ($16.2 billion decrease) and FY 2009 ($9.5 billion increase) changes in the actuarial
liability. The change in Earned Revenue is primarily due to a decrease of $7.1 billion in interest revenue combined
with a decrease of $3.1 billion in contributions from the U.S. Treasury and Uniformed Services. The decrease in
interest revenue is the result of a decrease in inflation compensation which, in turn, is directly related to the current
economic conditions. Contribution amounts calculated by the DoD Office of the Actuary decreased due to
assumptions used by the DoD Board of Actuaries.




                                                           12
                                                          Management’s Discussion And Analysis

Statements of Budgetary Resources

The Net Amount of Budgetary Resources Obligated for Undelivered Orders increased $10.0 million (25%). Of this
amount, $11.4 million was directly related to TMOP. These changes in TMOP are associated with the increased
cost of drugs and the increased number of beneficiaries using the program.

Net Outlays increased $9.5 billion (74%) primarily due to a decrease in the U.S. Treasury contributions of
$2.3 billion and a decrease of $7.1 billion in interest revenue. The U.S. Treasury has classified its contribution and
the interest revenue as distributed offsetting receipts. The decrease in contributions is directly related to the
payment computations made by the DoD Office of the Actuary. The decrease in interest revenue is the result of the
current economic conditions.

Internal Controls Over Financial Reporting and on Compliance with Other Matters

During an independent audit of the Fund’s financial statements, the auditor identified deficiencies related to the
internal control over the preparation, analysis, and monitoring of financial information to support the efficient and
effective preparation of financial statements. Because of these deficiencies, the auditor believes the Fund’s financial
management system does not meet the requirements of an integrated financial management system as defined in
OMB Circular A-127, with respect to consistent internal control over data entry, transaction processing and
reporting. Further, the auditors believe the Fund is not in compliance with the system design requirements sufficient
to comply with internal and external reporting requirements, including, as necessary, the requirements for financial
statements prepared in accordance with the form and content prescribed by OMB and reporting requirements
prescribed by Treasury, and to monitor the financial management system to ensure integrity of financial data.

More detailed discussion of the auditors findings on internal controls can be found in the “Independent Auditors’
Report on Internal Control Over Financial Reporting and on Compliance and Other Matters Based Upon the Audit
Performed in Accordance with Government Auditing Standards.”




                                                          13
                                               DoD
     MEDICARE-ELIGIBLE RETIREE
        HEALTH CARE FUND




              PRINCIPAL STATEMENTS




The accompanying notes are an integral part of these statements

                                                          14
                                                                                Principal Statements

                                           Department of Defense
                                Medicare-Eligible Retiree Health Care Fund
                                            BALANCE SHEETS
                             For the Years Ended September 30, 2009, and 2008
                                             ($ In Thousands)

                                                                                2009             2008
 ASSETS
      Intragovernmental:
         Fund Balance with Treasury (Note 2)                          $         5,000     $         5,000
         Investments (Note 3)                                             148,403,475         134,291,659
         Total Intragovernmental Assets                                   148,408,475         134,296,659

     Accounts Receivable, Net (Note 4)                                       424,686               12,486
 TOTAL ASSETS                                                         $   148,833,161     $   134,309,145

 LIABILITIES
      Intragovernmental:
         Accounts Payable (Note 6)                                    $          62,813   $       61,387
      Total Intragovernmental Liabilities                                        62,813           61,387

     Accounts Payable (Note 6)                                                 60,081             138,429
     Military Retirement Benefit Liabilities (Notes 5 and 8)              509,466,419         500,195,710
     Benefits Due and Payable (Note 8)                                        820,366             623,470
 TOTAL LIABILITIES                                                    $   510,409,679     $   501,018,996


 NET POSITION
   Cumulative Results of Operations – Earmarked Funds                 $ (361,576,518)     $ (366,709,851)
 TOTAL NET POSITION                                                     (361,576,518)       (366,709,851)

 TOTAL LIABILITIES AND NET POSITION                                   $   148,833,161     $   134,309,145




The accompanying notes are an integral part of these statements

                                                               15
                                                                               Principal Statements


                                              Department of Defense
                                   Medicare-Eligible Retiree Health Care Fund
                                         STATEMENTS OF NET COST
                                For the Years Ended September 30, 2009, and 2008
                                                ($ In Thousands)
                                                                                2009              2008
    PROGRAM COSTS
      Gross Costs                                                       $    17,336,042    $    (8,429,788)
      Less: Earned Revenue                                                  (22,469,375)       (32,657,192)

            Net Program Costs                                                (5,133,333)       (41,086,980)

  NET COST OF OPERATIONS                                                $    (5,133,333)   $   (41,086,980)




Additional information included in Note 9.




The accompanying notes are an integral part of these statements

                                                               16
                                                                               Principal Statements

                                               Department of Defense
                                    Medicare-Eligible Retiree Health Care Fund
                                STATEMENTS OF CHANGES IN NET POSITION
                                 For the Years Ended September 30, 2009, and 2008
                                                 ($ In Thousands)

                                                                                    2009              2008
 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                                       $ (366,709,851)      $ (407,796,831)

 Budgetary Financing Sources                                                               0                 0
 Other Financing Sources                                                                   0                 0
 Total Financing Sources                                                  $                0   $             0

 Net Cost of Operations (+/-)                                                  (5,133,133)         (41,086,980)
 Net Change                                                                     5,133,133           41,086,980

 Cumulative Results of Operations                                         $ (361,576,518)      $ (366,709,851)

 Unexpended Appropriations, Beginning Balance                                              0                 0
 Budgetary Financing Sources                                                               0                 0
 Total Unexpended Appropriations                                                           0                 0

 Net Position                                                             $ (361,576,518)      $ (366,709,851)




The accompanying notes are an integral part of these statements

                                                                17
                                                                              Principal Statements


                                             Department of Defense
                                  Medicare-Eligible Retiree Health Care Fund
                               STATEMENTS OF BUDGETARY RESOURCES
                               For the Years Ended September 30, 2009, and 2008
                                               ($ In Thousands)

                                                                                  2009             2008
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1                       $                 0   $            0
 Budget authority
   Appropriation                                                              22,396,704          32,270,819
   Subtotal                                                                   22,396,704          32,270,819
 Nonexpenditure transfers, net, anticipated and actual                                 0                   0
 Temporarily not available pursuant to Public Law                            (14,106,055)        (24,484,897)
 Total Budgetary Resources                                             $       8,290,649 $        7,785, 922

 STATUS OF BUDGETARY RESOURCES
 Obligations incurred:
   Direct                                                              $      8,290,649      $    7,785,922
   Subtotal                                                                   8,290,649           7,785, 922
 Unobligated balance:
   Apportioned                                                                        0                   0
   Subtotal                                                                           0                   0
 Unobligated balance not available                                                    0                   0
 Total status of budgetary resources                                   $      8,290,649      $    7,785,922

 CHANGE IN OBLIGATED BALANCE
 Obligated balance, net
    Unpaid obligations, brought forward, October 1                     $         240,101 $           368,773
    Total unpaid obligated balance, net                                          240,101             368,773
 Obligations incurred net (+/-)                                                8,290,649           7,785,922
 Less: Gross outlays                                                          (8,357,559)         (7,914,594)
 Obligated balance, net, end of period
    Unpaid obligations                                                             173,192          240,101
    Total unpaid obligated balance, net, end of period                 $           173,192   $      240,101

 NET OUTLAYS
 Net Outlays
   Gross Outlays                                                       $       8,357,559 $         7,914,594
   Less: Distributed Offsetting Receipts                                     (11,752,354)        (20,774,860)
 Total Outlays                                                         $      (3,394,795) $      (12,860,266)

 Additional information included in Note 11.




The accompanying notes are an integral part of these statements

                                                               18
          DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND
          FUND




      NOTES TO THE
  PRINCIPAL STATEMENTS




            19
                                                                    Notes to the Principal Statements

                       DoD MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND
                             NOTES TO THE PRINCIPAL STATEMENTS
                        FOR THE YEARS ENDED SEPTEMBER 30, 2009, AND 2008

NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
A. Basis of Presentation. These financial statements have been prepared to report the financial position and results
of operations for the Medicare-Eligible Retiree Health Care Fund (MERHCF), as required by the Chief Financial
Officers Act of 1990, expanded by the Government Management Reform Act of 1994, and other appropriate
legislation. The financial statements have been prepared using the books and records of MERHCF in accordance
with U.S. generally accepted accounting principles (USGAAP) promulgated by the Federal Accounting Standards
Advisory Board; the Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements;
and the Department of Defense (DoD) Financial Management Regulation. The accompanying financial statements
account for all resources for which the MERHCF is responsible unless otherwise noted.
The MERHCF currently has two auditor-identified financial statement material weaknesses: (1) The DoD-managed
Military Treatment Facilities (MTFs) do not have compliant, transaction-based accounting systems that support the
costs of direct care provided to MERHCF beneficiaries and (2) The MTF-level health care cost data is based on
budget execution processes rather than accrual-based accounting.
B. Mission of the Reporting Entity. The mission of the MERHCF is to accumulate funds in order to finance, on an
actuarially sound basis, liabilities of health care programs for DoD Military Services and other Uniformed Services.
The MERHCF provides benefits for a Medicare-eligible member of a participating Military Service or other
Uniformed Service entitled to retired or retainer pay and such member’s Medicare-eligible dependents or survivors.

C. Appropriations and Funds. Public Law 106-398, The Floyd D. Spence National Defense Authorization Act for
Fiscal Year 2001, authorized MERHCF and provided a permanent, indefinite appropriation. Permanent authority
becomes available based upon standing provisions of law without any further legislative action by the Congress after
transmittal of the budget for each year. The law does not specify an amount of budget authority for the indefinite
appropriation; however, the law does specify a variable factor that determines the amount available until expended.

The MERHCF is a special fund. Special fund accounts are used to record government receipts reserved for a
specific purpose. Accordingly, the funds in MERHCF are used, in compliance with the law, to provide benefits for
the Medicare-eligible beneficiaries listed in paragraph 1B.

The MERHCF funds are designated as earmarked funds. Earmarked funds are financed by specifically identified
revenues; are required by statute to be used for designated activities, benefits, or purposes; and remain available over
time. The MERHCF is required to separately account for and report on the receipt, use, and retention of revenues
and other financing sources for earmarked funds.

D. Basis of Accounting. The MERHCF’s financial management systems record and report on the accrual basis.
Financial and nonfinancial feeder systems and processes are updated from legacy systems to collect and report
financial information in accordance with USGAAP.
The financial statements and supporting trial balances are compiled from the underlying financial data and trial
balances. The underlying data for the MERHCF is largely derived from budgetary (obligations, disbursements, and
collections) and proprietary transactions (assets and liabilities) and accruals made for major items such as accounts
receivable, accounts payable, and health care liabilities. Some of the lower level trial balances may reflect known
abnormal balances resulting largely from business and system processes. At the consolidated level, these abnormal
balances may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only to the
extent that the abnormal balances are evident at the consolidated level.
E. Revenues and Other Financing Sources. Using methods and assumptions provided by the DoD MERHCF Board
of Actuaries, the DoD Office of the Actuary determines the amount of the contribution to MERHCF. The
contribution consists of two parts: A U.S. Treasury warrant for the amortization payment of the original unfunded
liability and an annual contribution from each Uniformed Service: Army, Navy, Air Force, Marine Corps, U.S.
Coast Guard, Public Health Service, and National Oceanic and Atmospheric Administration. Funds from the



                                                          20
                                                                    Notes to the Principal Statements

contributions that exceed the amounts required to pay current year expenses are invested in long-term securities.
These investments and their associated interest revenues will be used to cover future liabilities of MERHCF.

F. Recognition of Expenses. For financial reporting purposes, DoD policy requires the recognition of benefit
expenses in the period incurred. The current financial feeder system was not designed to collect and record financial
information on the full accrual accounting basis. Accruals are made for major items such as accounts receivable and
accounts payable.

G. Accounting for Intragovernmental Activities. The U.S. Treasury’s Federal Intragovernmental Transactions
Accounting Policy Guide and the Treasury Financial Manual, Part 2 – Chapter 4700, Agency Reporting
Requirements for the Financial Report of the United States Government, provide guidance for reporting and
reconciling intragovernmental balances. The MERHCF is able to reconcile balances pertaining to investments in
federal securities.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The
Federal Government does not apportion debt and its related costs to federal agencies. The DoD financial statements
do not report any public debt, interest, or source of public financing, whether from issuance of debt or tax revenues.

H. Funds with the U.S. Treasury. The MERHCF’s monetary resources are maintained in U.S. Treasury accounts.
The disbursing offices of the Defense Finance and Accounting Service (DFAS) and other DoD Agency financial
service centers process the majority of MERHCF’s cash collections, disbursements, and adjustments worldwide.
Each disbursing station prepares monthly reports that provide information to the U.S. Treasury on checks issued,
electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites submit reports to the U.S. Treasury, by appropriation, on interagency transfers, collections
received, and disbursements issued. The U.S. Treasury records these transactions to the applicable Fund Balance
with Treasury (FBWT) account. The MERHCF reconciles monthly with the U.S. Treasury account with no
outstanding discrepancies.
The U.S. Treasury allows MERHCF to be fully invested. Therefore, FBWT may be zero at various times during the
fiscal year including the end of a quarter or a fiscal year; however, precautions are taken to prevent abnormal
balances at the U.S. Treasury.
I. Accounts Receivable. Accounts receivable from other federal entities or the public include accounts receivable,
claims receivable, and refunds receivable. Allowances for uncollectible accounts due from the public are based
upon analysis of collection experience by MERHCF during the previous 11 months. The DoD does not recognize
an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies
are to be resolved between the agencies in accordance with dispute resolution procedures defined in the
Intragovernmental      Business     Rules    published     in     the    Treasury     Financial      Manual      at
http://www.fms.treas.gov/tfm/vol1/07-03.pdf.
Since the beginning of the Federal Ceiling Price (FCP) Program, outpatient pharmaceuticals purchased by DoD for
medical treatment facility pharmacies have been subject to FCPs, as have those under the TRICARE Retail
Pharmacy Program. The MERHCF implemented FCP for the TRICARE Retail Pharmacy Program in compliance
with the National Defense Authorization Act (NDAA) for Fiscal Year (FY) 2008, section 703. The Final Rule was
published March 17, 2009, with an effective date of May 26, 2009. The MERHCF applied this rule to all retail
prescriptions filled subsequent to January 28, 2008, unless the TRICARE Management Activity granted a waiver to
a particular manufacturer. Compliance is mandatory and the advantage to the manufacturers is that their drugs will
be included on the DoD Uniform Formulary (list of available prescription drugs). The MERHCF recorded accounts
receivable upon receipt of the calculation from the TRICARE Pharmacy Operations Directorate subject to pending
litigation and will post the collections from the manufacturers to the fiscal year of receipt pursuant to Title 10, U.S.
Code, section 1079a.
J. Investments in U.S. Treasury Securities. The MERHCF reports investments in U.S. Treasury securities at cost,
net of amortized premiums or discounts (book value). Premiums or discounts are amortized over the term of the
investment using the effective interest method. The MERHCF’s intent is to hold investments to maturity unless they
are needed to finance claims or otherwise sustain operations. Consequently, there is no provision for unrealized
gains or losses on these securities.


                                                          21
                                                                    Notes to the Principal Statements

The MERHCF invests in nonmarketable, market-based U.S. Treasury securities which are issued to federal agencies
by the U.S. Treasury, Bureau of the Public Debt. These securities mirror marketable securities, but are not publicly
traded. The MERHCF receives interest semiannually from the U.S. Treasury on the value of these securities.
K. Contingencies and Other Liabilities. The Statement of Federal Financial Accounting Standards (SFFAS) No. 5,
Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of Contingent
Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of circumstances
that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future
events occur or fail to occur. The MERHCF recognizes contingent liabilities when past events or exchange
transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there
is at least a reasonable possibility of incurring a loss or additional losses.
L. Net Position. Net position consists of cumulative results of operations. Cumulative results of operations
represent the net of expenses, losses, and financing sources (including appropriations, revenue, and gains) since
inception. The cumulative results also include donations and transfers in and out of assets that were not reimbursed.
M. Unexpended Obligations. The MERHCF obligates funds to provide goods and services; some of which are not
yet delivered. The financial statements do not reflect this liability, for payment for goods and services not yet
delivered, unless title passes. Unexpended obligations include (1) obligations for which goods and services have
been delivered (title passed) and a liability recognized and (2) obligations for which no delivery has occurred and no
liability recognized. The balance of unexpended obligations appears immediately before net outlays in the
Statement of Budgetary Resources and is referred to as “Total unpaid obligated balances, net, end of period.”

N. Undistributed Disbursements and Collections. Undistributed disbursements and collections represent the
difference between disbursements and collections matched at the transaction level to a specific obligation, payable,
or receivable in the source system and those reported by the U.S. Treasury. The MERHCF has no undistributed
disbursements or collections.

NOTE 2. FUND BALANCES WITH TREASURY

($ In Thousands)                                                                       2009                2008

Fund Balance
Total Special Funds                                                            $          5,000    $          5,000


Status of Fund Balance with Treasury

Unobligated Balance - Unavailable                                              $  146,670,593      $  132,564,539
Obligated Balance not yet Disbursed                                                   173,192             240,101
Non-FBWT Budgetary Accounts                                                      (146,838,785)       (132,799,640)
Total                                                                          $        5,000      $        5,000


During the FY 2009 audit, the auditors discovered that estimated disbursements for the MERHCF were being
reported to the U.S. Treasury each month and any differences between the actual and estimated amounts were
reported as disbursements of the Contract Resource Management (CRM) Division in the TRICARE Management
Activity (TMA). This process, which has been in place since the beginning of MERHCF in FY 2003, was
implemented to prevent the over-investment of funds which would result in a negative FBWT. Any differences
were then corrected in the subsequent month. As a result of this process, both the FBWT and net position were
overstated and gross costs were understated in the amount of $22.8 million. The MERHCF and TMA are addressing
this issue and will develop a resolution by the next reporting period.




                                                          22
                                                                   Notes to the Principal Statements

The Status of FBWT reflects the budgetary resources to support the FBWT and is a reconciliation between
budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances
reflect the budgetary authority remaining for disbursement against current or future obligations.

The Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary
authority that has not been set aside to cover outstanding obligations. The unavailable balance, which consists
primarily of funds that are temporarily precluded from obligation by law, is invested in U.S. Treasury securities.
Certain MERHCF unobligated balances are restricted for future use and are not apportioned for current use. These
MERHCF balances relate to special fund accounts which are treated similarly to a trust fund and are restricted by the
public laws that established the fund. These balances become available subsequently without further congressional
action.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received
and those received but not paid. The MERHCF balance represents amounts payable to the Defense Logistics
Agency (DLA) for purchases of pharmaceuticals, to private contractors waiting for DLA to replenish the
pharmaceutical supply, and to private hospitals for medical services rendered.

Non-FBWT Budgetary Accounts reduces the Status of FBWT. The MERHCF balance represents investment
accounts.

NOTE 3. INVESTMENTS

($ In Thousands)                                              2009
                                                                  Amortized                                Market
                                             Amortization        (Premium)/           Investments           Value
                                 Cost          Method              Discount               Net             Disclosure
Intragovernmental
Securities:

     Non Marketable,                            Effective
     Market-Based         $   150,184,308        Interest      $   (3,345,523)    $    146,838,785    $   150,820,636

Subtotal                      150,184,308                          (3,345,523)         146,838,785        150,820,636

Interest Receivable             1,564,690                                    0           1,564,690          1,564,690
Total Investments         $   151,748,998                      $   (3,345,523)    $    148,403,475    $   152,385,326

($ In Thousands)                                              2008
                                                                  Amortized                                Market
                                             Amortization        (Premium)/           Investments,          Value
                                 Cost          Method              Discount               Net             Disclosure
Intragovernmental
Securities:

     Non Marketable,                            Effective
     Market-Based         $   135,483,350        Interest      $   (2,683,711)    $    132,799,639    $   127,002,399

Subtotal                      135,483,350                          (2,683,711)         132,799,639        127,002,399

Interest Receivable             1,492,020                                    0           1,492,020          1,492,020
Total Investments         $   136,975,370                      $   (2,683,711)    $    134,291,659    $   128,494,419


Investments, Net, increased $14.1 billion (11%). This increase is the result of investing annual contributions from
the U.S. Treasury and the Uniformed Services net of current disbursements for benefits paid. Investment of these



                                                         23
                                                                    Notes to the Principal Statements

funds has a cumulative effect with an expectation that invested balances will continue growing to cover the
unfunded portions of future benefits. The MERHCF purchased $15.3 billion in long-term securities during
FY 2009.

The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
earmarked funds. The cash generated from earmarked funds is deposited in the U.S. Treasury, which uses the cash
for general government purposes. The U.S. Treasury securities are issued to the earmarked funds as evidence of its
receipts and are an asset to the MERHCF and a liability to the U.S. Treasury. Since the MERHCF and the U.S.
Treasury are both parts of the Federal Government, these assets and liabilities offset each other from the standpoint
of the Federal Government as a whole. For this reason, they do not represent an asset or a liability in the U.S.
Government-wide financial statements. The U.S. Treasury securities provide the MERHCF with authority to draw
upon the U.S. Treasury to make future benefit payments or other expenditures. When the MERHCF requires
redemption of these securities to make expenditures, the Federal Government finances the securities out of
accumulated cash balances by raising taxes or other receipts, borrowing from the public or repaying less debt, or
curtailing other expenditures. The Federal Government uses the same method to finance all other expenditures.

The following table displays the cost of the U.S. Treasury Securities.

               ($ In Thousands)
                                        COST 2009                                                      COST 2008
               Notes                   $ 11,237,504                        Notes                      $ 14,313,315
               Bonds                      4,957,957                        Bonds                         3,203,750
               TIPS                     127,272,130                        TIPS                        115,980,754
               Overnights                 6,716,717                        Overnights                    1,985,531
               Total Cost              $150,184,308                        Total Cost                 $135,483,350

The MERHCF purchases and redeems nonmarketable, market-based securities that fluctuate in tandem with the
current selling price of the equivalent marketable securities on the open market. The MERHCF purchases securities
with the intent to hold until maturity; therefore, balances are not adjusted to market value.

At the semiannual meetings, the DoD Investment Board approves the strategy for the type of securities purchased by
MERHCF. These securities may include U.S. Treasury bills, notes, bonds, inflation-protected securities, and
overnight certificates. The U.S. Treasury bills are short-term securities with maturities of one year or less and are
purchased at a discount. The U.S. Treasury notes have maturities of at least one year, but not more than ten years,
and are purchased at either a discount or premium. The U.S. Treasury bonds are long-term securities with maturities
of ten years or more and are purchased at either a discount or premium. The U.S. Treasury Inflation-Protected
Securities (TIPS) provide protection against inflation. The TIPS principal increases with inflation and decreases
with deflation, as measured by the Consumer Price Index. When a TIPS matures, the U.S. Treasury pays the
adjusted principal or original principal, whichever is greater. The TIPS amount includes inflation compensation as
well as the par value of the shares. Overnight securities are short-term securities, purchased at face value, that
mature the next business day and earn interest at the daily Federal Reserve repurchase agreement rate.




                                                          24
                                                                   Notes to the Principal Statements

NOTE 4. ACCOUNTS RECEIVABLE

($ In Thousands)                                                                     2009
                                                                                 Allowance for
                                                                                                        Accounts
                                                                Gross             Estimated
                                                                                                       Receivable,
                                                              Amount Due         Uncollectibles
                                                                                                          Net

Intragovernmental Receivables                           $               0    $        N/A          $                0
Nonfederal Receivables from the Public                            464,995              (40,309)               424,686
Total Accounts Receivables                              $         464,995   $          (40,309)    $          424,486

($ In Thousands)                                                                     2008
                                                                                 Allowance for
                                                                                                        Accounts
                                                                Gross             Estimated
                                                                                                       Receivable,
                                                              Amount Due         Uncollectibles
                                                                                                          Net

Intra-governmental Receivables                          $               0    $        N/A          $                  0
Nonfederal Receivables from the Public                             12,537                   (51)                 12,486
Total Accounts Receivables                              $          12,537    $              (51)   $             12,486

Accounts Receivable, Public, increased $412.2 million. This increase is primarily due to the implementation of the
FCP Program for the TRICARE Retail Pharmacy Program as required by the FY 2008 NDAA.

The receivables for the Mandatory Agreement Retail Pharmacy Refunds (MARR) Program were recorded as of
September 30, 2009: 3rd Quarter, FY 2009, totaled $200.1 million and 4th Quarter, FY 2009, estimates totaled
$202.5 million.

On March 17, 2009, the DoD published a Final Rule (32 C.F.R. § 199.21 (q), 74 Federal Register 11,279)
implementing Section 703 of the NDAA for FY 2008 with respect to the TRICARE Retail Pharmacy program.

According to the Final Rule, the refunds are to be collected retroactively to the date of the NDAA enactment –
January 28, 2008.

Shortly after the publishing of the Final Rule, a coalition of members from the pharmaceutical industry took legal
action to invalidate the Final Rule and obtain a Court order prohibiting DoD from collecting any refunds
whatsoever. The coalition also argued that if the Final Rule is valid, it should not be effective retroactively to
January 2008. This legal action is currently being reviewed in a Federal Court, with a decision anticipated before
the end of the current calendar year.

Prescriptions filled from January 28, 2008, through March 17, 2009, occurred prior to the publication of the DoD
Final Rule and before the signing of pricing agreements with the pharmaceutical manufacturers now required by the
Final Rule. Almost all drug companies requested a waiver of refunds for prescriptions filled during this time frame
on the grounds they do not believe DoD has legal authority to require them. The DoD disagrees, and that is a major
issue in the pending lawsuit. Due to the pendency of the waiver requests and lawsuit, the DoD and TMA General
Counsels recommend that DoD delay issuing invoices and establishing accounts receivable for the refunds during
the period January 28, 2008, through March 31, 2009, until after the Court’s ruling.

Refunds were requested for prescriptions filled from April 1, 2009, through June 30, 2009, in the form of computer
files by manufacturer. Neither demand letters nor invoices were sent to the manufacturers with the prescription
files. However, it is the General Counsels’ recommendation that DoD record accounts receivable for the refund
amounts for the 3rd Quarter, FY 2009, reflected in the flat files sent to each of the pharmaceutical manufacturers.




                                                         25
                                                                   Notes to the Principal Statements

For prescriptions filled during the 4th Quarter, FY 2009, DoD will issue invoices with the utilization data submitted
to the pharmaceutical manufacturers. These invoices will be submitted in the latter part of October 2009, with
payment due 70 days thereafter – roughly the close of calendar year 2009. A Court ruling should be rendered by
then; so DoD can react with adjustments as necessary. An estimate of the 4th Quarter, FY 2009, refunds has been
recorded as an accounts receivable along with the 3rd Quarter accounts receivable for a total MARR Program gross
receivable of $402.6 million.

The TMA believes the government is in a favorable position to prevail on the legal actions. As such, the
collectability of these refunds is almost certain once the legal issues are resolved. There may be some changes in the
calculation of the amount receivable which will be raised by the manufacturers which will require adjustment of the
amounts receivable. The financial viability of some of the manufacturers may also affect their ability to pay these
refunds. As such, an allowance for doubtful accounts has been estimated (at 10% ($40.3 million)) and recorded.
The TMA expects to modify this allowance once this program matures and there is a historical basis from which to
project actual collections.

NOTE 5. LIABILITIES COVERED AND NOT COVERED BY BUDGETARY RESOURCES

 ($ In Thousands)                                                                     2009                 2008


 Non-Federal Liabilities:
 Military Retirement Benefits Liabilities (Note 7)                           $     363,616,192     $     368,254,642

 Total Non-Federal Liabilities                                               $     363,616,192     $     368,254,642

 Total Liabilities Not Covered by Budgetary Resources                        $     363,616,192     $     368,254,642

 Total Liabilities Covered by Budgetary Resources                                  146,793,487           132,764,354

 Total Liabilities                                                           $     510,409,679     $     501,018,996

The Total Liabilities Not Covered by Budgetary Resources decreased $4.6 billion (1%). This change is primarily
attributable to an increase of $14.1 billion in investments offset by an increase in the actuarial liability of
$9.3 billion. The increase in assets was largely attributable to the receipt of annual contributions from the U.S.
Treasury and Uniformed Services during the 1st Quarter, FY 2009. The increase in the actuarial liability was
primarily due to a net gain from changes in key assumptions.

The MERHCF liabilities not covered by budgetary resources represent the difference between the actuarial liability
for future benefit payments and the current assets of the MERHCF.

The Military Retirement and Other Federal Employment Benefits not covered by budgetary resources represent
health benefit liabilities. Refer to Note 8, Military Retirement and Other Federal Employment Benefits, for
additional details and disclosures.

NOTE 6. ACCOUNTS PAYABLE

 ($ In Thousands)                                                                     2009                 2008


 Intragovernmental Payables                                                   $         62,813    $           61,387
 Nonfederal Payables (to the Public)                                                    60,081               138,429
 Total Accounts Payable                                                       $        122,894    $          199,816




                                                         26
                                                                  Notes to the Principal Statements

Nonfederal Payables (to the Public) decreased $78.3 million (57%). This decrease is primarily due to the normal
fluctuations in the billings by Express Scripts, the pharmacy contractor, for furnishing the pharmaceuticals
associated with the TMOP and the claims paid by the TRICARE Dual-Eligible Fiscal Intermediary Contractor for
purchased inpatient and outpatient care.

Accounts payable include amounts owed to federal and nonfederal entities for goods and services received by the
MERHCF. The MERHCF’s system does not track intra-governmental transactions by customer at the transaction
level. Buyer-side balances are adjusted to agree with internal seller-side accounts receivable. The accounts payable
were adjusted by reclassifying between federal and nonfederal accounts payable.

NOTE 7. COMMITMENTS AND CONTINGENCIES

The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12,
Recognition of Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss.

Section 703 of the NDAA for FY 2008 enacted 10 U.S.C. 1074g(f) which provides for the following:

        (f) Procurement of Pharmaceuticals by TRICARE Retail Pharmacy Program. With respect to any
        prescription filled on or after the date of the enactment of the National Defense Authorization Act for
        FY 2008 [January 28, 2008], the TRICARE Retail Pharmacy Program shall be treated as an element of the
        Department of Defense [DoD] for purposes of the procurement of drugs by Federal agencies under section
        8126 of title 38 to the extent necessary to ensure that pharmaceuticals paid for by the Department of
        Defense [DoD] that are provided by pharmacies under the program to eligible covered beneficiaries under
        this section are subject to the pricing standards in such section 8126.

The effect of this law is that for all prescriptions filled on or after January 28, 2008, all covered TRICARE Retail
Pharmacy Network drug prescriptions are subject to FCPs. The DoD implemented this law through the
promulgation of a Final Rule (32 C.F.R., section 199.21(q),74 Federal Register 11,279), published March 17, 2009,
and effective May 26, 2009. The two primary provisions of the Final Rule are as follows:

    •   Pharmaceutical manufacturers are required to sign a written agreement to honor FCPs as a condition of
        eligibility for preferred Tier 2 status on the Uniform Formulary (UF) and unrestricted access through retail
        network pharmacies. Consistent with standard commercial practice in the retail pharmacy sector and the
        established TRICARE program of voluntary retail refunds, FCPs are implemented through refunds of the
        amount above FCPs the manufacturer was paid when the drugs entered the commercial stream, typically
        through a sale to a distributor.

    •   For prescriptions not covered by a UF pricing agreement, FCPs still apply under the statue, but collection
        of the refund is subject to waiver or compromise, including a potential waiver of all collections if the
        manufacturer withdraws its drug from the TRICARE pharmacy benefits program. Waiver and compromise
        requests are considered based on the established TRICARE procedures under the Federal Debt Collection
        Act (32 C.F.R., section 199.11), which generally include Department of Justice approval to waive or
        compromise a significant amount.

Litigation, which is pending, was initiated by pharmaceutical manufacturers acting through an association called the
Coalition for Common Sense in Government Procurement. This litigation seeks to invalidate the Final Rule and
obtain a court order prohibiting the DoD from collecting any refunds whatsoever. It is the DoD’s position that the
agency’s actions are fully supportable. The DoD will defend all provisions of the Final Rule. This case is pending
in the Federal Court for the District of Columbia. A decision from the Court is expected before the end of the
calendar year (although appeals or other circumstances could defer a conclusive resolution).

However, as with any litigation, there are risks that the Court may rule against the government. If that happens and
one of the remedies ordered by the Court involves setting aside the TRICARE regulation on federal pricing refunds,
the government could face the issue of refunding those collections not related to a voluntary pricing agreement.




                                                        27
                                                                    Notes to the Principal Statements

Given this possibility, it is prudent to disclose a contingent liability in the footnotes to the MERHCF financial
statements equal to the refunds collected to-date as of September 30, 2009, in the amount of $38.1 million.

NOTE 8. MILITARY RETIREMENT BENEFIT LIABILITIES

($ In Thousands)                                                                   2009
                                                                   Assumed          (Less: Assets
                                                                   Interest          Available to         Unfunded
        Major Program Activities                   Liabilities       Rate          Pay Benefits)          Liability

Medicare-Eligible Retiree Benefits            $    509,466,419      5.75%       $ (145,850,227)     $     363,616,192

Total                                         $    509,466,419                  $ (145,850,227)     $     363,616,192

Benefits Due and Payable                               820,366                          (820,366)                     0

Total Military Retirement and Benefits
Due and Payable                               $    510,286,785                  $ (146,670,593)     $     363,616,192


($ In Thousands)                                                                    2008
                                                                   Assumed         (Less: Assets
                                                                   Interest         Available to          Unfunded
        Major Program Activities                   Liabilities       Rate          Pay Benefits)          Liability

Medicare-Eligible Retiree Benefits            $    500,195,710      5.75%       $ (131,941,068)     $     368,254,642

Total                                         $    500,195,710                  $ (131,941,068)     $     368,254,642

Benefits Due and Payable                               623,470                          (623,470)                     0

Total Military Retirement and Benefits
Due and Payable                               $    500,819,180                  $ (132,564,538)     $     368,254,642

The Total Military Retirement and Benefits Due and Payable increased $9.5 billion (2%) primarily due to the
increase in the FY 2009 actuarial liability. This increase is primarily due to a net gain from changes in key
assumptions that were partially offset by the expected increase in the actuarial liability of $31.1 billion (growth due
to service and interest, and liability released through benefit payments). The actuarial gains and losses due to other
factors decreased the liability by $18.6 billion. Key factors contributing to these “Other Factors” include updated
assumptions to reflect mandated federal ceiling prices for retail prescription drugs and revised mortality
improvement factors. The actuarial gain due to changes in medical trend assumptions decreased the liability by
$3.2 billion.

The above table displays two distinct types of liabilities that are related to Military Retirement and Other Federal
Employment Benefits. This table presents the actuarial liability for health care benefits which are not yet incurred
on the line titled “Medicare-Eligible Retiree Benefits.” It also displays the incurred-but-not-reported (IBNR) reserve
amount that represents an estimate of benefits already incurred but not yet reported to the DoD on the line titled
“Benefits Due and Payable.”




                                                          28
                                                                    Notes to the Principal Statements

Projected Revenues

The MERHCF receives projected revenues from three sources: interest earnings on MERHCF assets, annual
Uniformed Services normal cost contributions, and an annual U.S. Treasury contribution. The normal cost
contributions are paid annually at the beginning of the fiscal year by the U.S. Treasury from the amounts
appropriated to the Military Services and are calculated at the approved full-time and part-time per capita rates times
the budgeted full-time and part-time force strengths. The contribution from the U.S. Treasury is also paid into
MERHCF at the beginning of each fiscal year and represents the amortization of the unfunded liability for services
performed before October 1, 2002, as well as the amortization of subsequent actuarial gains and losses. The DoD
MERHCF Board of Actuaries approves the per capita normal cost rates and the U.S. Treasury contribution, and the
Secretary of Defense directs the Secretary of Treasury to make the payments.

FY 2009

Actuarial Cost Method

As dictated by law, the MERHCF is funded using the aggregate entry-age normal method. This is a method
whereby projected retirement costs are spread over the projected future salaries of a cohort at the point of entry.

Assumptions

Assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual
experience. The discount rate used was 5.75% and represents the expected long-term rate of return on U.S.
Treasuries. Incurred cost assumptions for inpatient and outpatient care (for both direct care and purchased care)
were based on FY 2005 through FY 2007 experience. Assumptions for prescription drug costs (both purchased care
and direct care) and US Family Health Plan (USFHP) premiums were developed from FY 2007 and FY 2008
experience. Because of reporting deadlines, the current year actuarial present value of projected plan benefits is
rolled forward, using accepted actuarial methods, from the prior year’s results. The FY 2009 change in the actuarial
liability is displayed below. In calculating the actuarial liabilities, the following medical trend assumptions were
used:

 Medical Trend                                                 FY 2008 - FY 2009        Ultimate Rate 2033

 Medicare Inpatient (Direct Care)                                     5.13%                          6.25%
 Medicare Inpatient (Purchased Care)                                  6.13%                          6.25%
 Medicare Outpatient (Direct Care)                                    4.13%                          6.25%
 Medicare Outpatient (Purchased Care)                                 5.13%                          6.25%
 Medicare Prescriptions (Direct Care)                                 3.00%                          6.25%
 Medicare Prescriptions (Purchased Care)                              8.44%                          6.25%
 USFHP (Purchased Care)                                               9.00%                          6.25%

The medical cost trends assumptions have a significant effect on the amounts reported. For example, if each of the
assumed trend rates had increased by one percentage point, the actuarial present value of project plan benefits would
have increased 28.6%, or approximately $145.7 billion.




                                                          29
                                                                    Notes to the Principal Statements


FY 2009 Change in MERHCF Actuarial Liability

($ In Thousands)
 A. Actuarial Liability as of September 30, 2008 (all Uniformed Services Medicare)                  $ 500,195,710
 B. Expected Normal Cost for FY 2009                                                                   10,373,852
 C. Expected Benefit Payments for FY 2009                                                               (8,429,211)
 D. Interest Cost for FY 2009                                                                          29,118,797
 E. Actuarial (Gains)/Losses Due to Other Factors                                                     (18,604,305)
 F. Actuarial (Gains)/Losses Due to Changes in Trend Assumptions                                        (3,188,424)
 G. Actuarial Liability as of September 30, 2009 (all Uniformed Services Medicare)                    509,466,419
 H. Change in Actuarial Liability (Line G-Line A)                                                   $    9,270,709

Each year the actuarial liability is expected to increase with normal (or service) cost (Line B), decrease with benefit
payments (Line C), and increase with interest cost (interest on the liability during the period) (Line D), resulting in
an expected increase of $31.1 billion in the FY 2009 actuarial liability (Line B + Line C + Line D). The
September 30, 2009, actuarial liability incorporates changes in assumptions, new assumptions, and actuarial
experience. The Actuarial Gains and Losses Due to Other Factors (Line E) decreased the liability by an additional
$18.6 billion. Key factors contributing to these “Other Factors” include updated assumptions to reflect mandated
federal ceiling prices for retail prescription drugs, revised mortality improvement factors, other actuarial experience
being different from assumed, and actuarial assumption changes other than the change in trend assumptions. The
actuarial gain due to changes in medical trend assumptions (Line F) decreased the liability by $3.2 billion.

The MERHCF actuarial liability is adjusted at the end of each fiscal year. The 4th Quarter, FY 2009, balance
represents the September 30, 2009, amount.

FY 2009 Actuarial Liability for the Uniformed Services

The MERHCF liability included Medicare liabilities for all Uniformed Services. The approximate breakout of the
September 30, 2009, Medicare liability for all Uniformed Services is as follows:

($ In Thousands)
 DoD                                                                                               $    498,077,834
 Coast Guard                                                                                             10,215,732
 Public Health Service                                                                                    1,100,526
 National Oceanic and Atmospheric Administration                                                             72,327
 Total                                                                                             $    509,466,419

FY 2009 Uniformed Service Contributions

The FY 2009 Uniformed Service contributions to the MERHCF were as follows:

($ In Thousands)
 DoD                                                                                               $      10,350,593
 Coast Guard                                                                                                 257,305
 Public Health Service                                                                                        34,778
 National Oceanic and Atmospheric Administration                                                               1,674
 Total                                                                                             $      10,644,350

Market Value of Securities for the MERHCF

The market value of the non-marketable, market based securities as of September 30, 2009, totaled $152.4 billion.




                                                          30
                                                                    Notes to the Principal Statements

FY 2008

Actuarial Cost Method

As dictated by law, the MERHCF is funded using the aggregate entry-age normal method. This is a method
whereby projected retirement costs are spread over the projected future salaries of a cohort at the point of entry.

Assumptions

Assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual
experience. The discount rate used was 5.75% and represents the expected long-term rate of return on U.S.
Treasuries. The discount rate was reduced 0.25% from the prior actuarial valuation. Incurred cost assumptions for
direct were based on actual experience in FY 2007. Assumptions for purchased care were developed from actual
experience incurred during FY 2005 through FY 2007. Because of reporting deadlines, the current year actuarial
present value of projected plan benefits is r0olled forward, using accepted actuarial methods, from the prior year’s
results. The FY 2008 change in the actuarial liability is displayed below. In calculating the actuarial liabilities, the
following medical trend assumptions were used:


  Medical Trend                                                FY 2007 - FY 2008                  Ultimate Rate 2032
  Medicare Inpatient (Direct Care)                                   5.65%                              6.25%
  Medicare Inpatient (Purchased Care)                                6.65%                              6.25%
  Medical Outpatient (Direct Care)                                   3.33%                              6.25%
  Medicare Outpatient (Purchased Care)                               4.33%                              6.25%
  Medicare Prescriptions (Direct Care)                              3.00%                               6.25%
  Medicare Prescriptions (Purchased Care)                           8.55%                               6.25%
  USFHP (Purchased Care)                                            10.00%                              6.25%

Beginning with the actuarial liability determined for the September 20, 2008, MERHCF financial statements,
separate medical trend rates were used for direct care and purchased care costs to incorporate the assumption that
purchased care medical trends will be higher than direct care medical trends. In addition, a new set of trends was
introduced for the U.S. Family Health Plan (USFHP) costs. The USFHP costs are now valued as a separate benefit
in order to more accurately reflect that portion of the liability.

The medical cost trends assumptions have a significant effect on the amounts reported. For example, if the FY 2008
assumed rates had increased by one percentage point, the actuarial present value of projected plan benefits would
have increased by 28.6%, or approximately $143.0 billion.

FY 2008 Change in MERHCF Actuarial Liability

($ In Thousands)
   A. Actuarial Liability as of September 30, 2007 (all Uniformed Services Medicare)               $ 516,479,229
   B. Expected Normal Cost for FY 2007                                                                 10,070,293
   C. Expected Benefit Payments for FY 2007                                                            (8,545,983)
   D. Interest Cost for FY 2007                                                                        31,340,326
   E. Actuarial (Gains)/Losses Due to Other Factors                                                     (5,248,219)
   F. Actuarial (Gains)/Losses Due to Changes in Trend Assumptions                                    (43,899,936)
   G. Actuarial Liability as of September 30, 2007 (all Uniformed Services Medicare)               $ 500,195,710
   H. Change in Actuarial Liability (Line G-Line A)                                                $ (16,283,519)

Each year the actuarial liability is expected to increase with normal (or service) cost (Line B), decrease with benefit
payments (Line C), and increase with interest cost (interest on the liability during the period) (Line D), resulting in
an expected increase of $32.9 billion in the FY 2008 actuarial liability (Line B + Line C + Line D). The
September 30, 2008, actuarial liability incorporates changes in assumptions, new assumptions, and actuarial



                                                          31
                                                                   Notes to the Principal Statements

experience. The Actuarial Gains and Losses Due to Other Factors (Line E) decreased the liability by an additional
$5.2 billion. Key factors contributing to these “Other Factors” include a 0.25% decrease in the discount rate, adding
an assumption to reflect mandated federal ceiling prices for retail prescription drugs, other actuarial experience
being different from assumed, and actuarial assumption changes other than the change in trend assumptions and
discount rate. The actuarial gain due to changes in medical trend assumptions (and the introduction of new trend
rates for USFHP) (Line F) decreased the liability by $43.9 billion.

FY 2008 Actuarial Liability for the Uniformed Services

The MERHCF liability included Medicare liabilities for all Uniformed Services. The approximate breakout of the
September 30, 2008, Medicare liability for all Uniformed Services is as follows:

($ In Thousands)
 DoD                                                                                           $    489,038,340
 Coast Guard                                                                                         10,015,552
 Public Health Service                                                                                1,070,835
 National Oceanic and Atmospheric Administration                                                         70,983
 Total                                                                                         $    500,195,710

FY 2008 Uniformed Service Contributions

The FY 2008 Uniformed Service contributions to MERHCF were as follows:

($ In Thousands)
 DoD                                                                                           $      11,185,399
 Coast Guard                                                                                             272,111
 Public Health Service                                                                                    36,647
 National Oceanic and Atmospheric Administration                                                           1,802
 Total                                                                                         $      11,495,959

Market Value of Securities for the MERHCF

The market value of the non-marketable, market based securities as of September 30, 2008, totaled $128.5 billion.

NOTE 9. GENERAL DISCLOSURES RELATED TO THE STATEMENTS OF NET COST


($ In Thousands)                                                                     2009                2008

Intragovernmental Costs                                                    $      2,459,487     $     2,365,012
Public Costs                                                                     14,876,555         (10,794,800)
Total Costs                                                                $     17,336,042     $    (8,429,788)

Intragovernmental Earned Revenue                                           $    (22,469,375)    $   (32,657,192)
Public Earned Revenue                                                                      0                   0
Total Earned Revenue                                                       $    (22,469,375)    $   (32,657,192)

Net Cost of Operations                                                     $     (5,133,333)    $   (41,086,980)




                                                         32
                                                                  Notes to the Principal Statements

The Net Cost of Operations decreased $36.0 billion (88%). This change is primarily due to a $25.8 billion decrease
in Total Costs and a $10.2 billion decrease in Earned Revenue. The change in Total Costs is primarily attributable
to the difference between the FY 2008 ($16.2 billion decrease) and FY 2009 ($9.5 billion increase) changes in the
actuarial liability. Factors impacting the changes in the actuarial liability are discussed in Note 8, Military
Retirement Benefits Liabilities. The change in Earned Revenue is primarily due to a decrease of $7.1 billion in
interest revenue combined with a decrease of $3.1 billion in contributions from the U. S. Treasury and Uniformed
Services. The decrease in interest revenue is the result of a decrease in inflation compensation which, in turn, is
directly related to the current economic conditions. Contribution amounts calculated by the DoD Office of the
Actuary decreased due to assumptions used by the DoD Board of Actuaries.

During the FY 2009 audit, the auditors discovered that estimated disbursements for the MERHCF were being
reported to the U.S. Treasury each month and any differences between the actual and estimated amounts were
reported as disbursements of the Contract Resource Management Division in the TMA. As a result of this process,
the MERHCF total costs were understated by $22.8 million. Refer to Note 2, Fund Balances with Treasury, for
additional details.

The FY 2008 abnormal balance on the Statement of Net Cost (SNC), a negative $8.4 billion, is due to a $16.3 billion
decrease in the MERHCF actuarial liability which was updated September 30, 2008. This decrease was caused by
changes in the actuarial assumptions, new assumptions, experience, and assumed discount rate and was offset by
$7.9 billion in normal benefit expenses.

The SNC represents the net cost of programs and organizations of the Federal Government supported by
appropriations or other means. The intent of the SNC is to provide gross and net cost information related to the
amount of output or outcome for a given program organization administered by a responsible reporting entity. The
DoD’s current processes and systems do not capture and report accumulated costs for major programs based upon
the performance measures as required by the Government Performance and Results Act. The DoD is in the process
of reviewing available data and developing a cost reporting methodology as required by the SFFAS No. 4,
Managerial Cost Accounting Concepts and Standards for the Federal Government, as amended by SFFAS No. 30,
Inter-entity Cost Implementation.

Intragovernmental costs and revenue are related transactions made between two reporting entities within the Federal
Government. Public costs and revenues are exchange transactions made between the reporting entity and a
nonfederal entity.

The MERHCF’s system does not track intragovernmental transactions by customer at the transaction level. Buyer-
side expenses are adjusted to agree with internal seller-side expenses. Expenses are adjusted by reclassifying
amounts between federal and nonfederal expenses.

Intragovernmental Earned Revenue is comprised of the following amounts:

                           Intragovernmental Earned Revenues for Program Costs

($ In Thousands)                                                                    2009                  2008

1. Uniformed Service Contributions                                         $      10,644,350    $      11,495,959
2. Annual Treasury Unfunded Liability Payment                                     10,660,000           12,930,000
3. Interest on Investments                                                         1,165,025            8,231,233
4. Total Intragovernmental Revenue                                         $     $22,469,375    $     $32,657,192




                                                        33
                                                                    Notes to the Principal Statements

Line 1. Uniformed Services Contributions represent the amount contributed by Treasury on behalf of the Uniformed
Services at the beginning of each fiscal year. The contribution rates, which are determined by the DoD Retirement
Board of Actuaries, are based on Board-approved per capita normal cost rates and expected average strengths for the
Uniformed Services.

Line 2. Annual Treasury Unfunded Liability Payment. This payment represents the amortization of the unfunded
liability for service performed before October 1, 2002, as well as the amortization of subsequent actuarial gains and
losses.

Line 3. Interest on Investments represents the interest income received by the MERHCF for FYs 2009 and 2008.

NOTE 10, DISCLOSURES RELATED TO THE STATEMENT OF CHANGES IN NET POSITION

During the FY 2009 audit, the auditors discovered that estimated disbursements for the MERHCF were being
reported to the U.S. Treasury each month and any differences between the actual and estimated amounts were
reported as disbursements of the CRM Division in TMA. As a result of this process, the MERHCF net position was
overstated by $22.8 million. Refer to Note 2, Fund Balances with the Treasury.

There was a difference of $22.4 billion between Appropriations Received on the Statement of Changes in Net
Position (SCNP) and Appropriations Received on the Statement of Budgetary Resources (SBR). This difference is
due to additional resources included in the Appropriations Received line on the SBR. Refer to Note 11, Disclosures
Related to the Statements of Budgetary Resources. As of September 30, 2008, the difference between the
MERHCF’s two statements was $32.3 billion.

NOTE 11. DISCLOSURES RELATED TO THE STATEMENTS OF BUDGETARY RESOURCES

  ($ In Thousands)                                                                               2009             2008

 Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of
 the Period                                                                                 $     50,298   $    40,286

Net Outlays increased $9.5 billion (74%) primarily due to a decrease in the U. S. Treasury contribution of
$2.3 billion and a decrease of $7.1 billion in interest revenue. The U. S. Treasury has classified its contribution and
the interest revenue as distributed offsetting receipts. The decrease in contributions is directly related to the
payment computations made by the DoD Office of the Actuary. The decrease in interest revenue is the result of the
current economic conditions. See Note 9, General Disclosures Related to the Statements of Net Cost, for additional
information regarding these decreases.

The Net Amount of Budgetary Resources Obligated for Undelivered Orders increased $10.0 million (25%). Of this
amount, $11.4 million was directly related to TMOP. The increases in the undelivered orders for TMOP are
associated with the increased cost of pharmaceutical drugs and the increased number of beneficiaries using the
program.

The MERHCF reported $8.3 billion in direct, Category B obligations. Category B obligations are apportioned funds
that relate to a specific project or program. As of September 30, 2008, the MERHCF reported $7.8 billion in direct,
Category B obligations.

The MERHCF’s unobligated balances of budget authority represent the portion of trust fund receipts collected in the
current fiscal year that (1) exceed the amount needed to pay benefits or other valid obligations and (2) exceed
receipts temporarily precluded from obligation by law due to a benefit formula or other limitation. The receipts,
however, are assets of the MERHCF and are available for obligation as needed in the future.

There was a difference of $22.4 billion between appropriations on the SCNP and appropriations on the SBR. This
difference represents current receipts reported as exchange revenue on the SNC, as appropriations on the SBR, and
as a part of the Net Cost of Operations on the SCNP.



                                                          34
                                                                  Notes to the Principal Statements


The U.S. Treasury issues annual warrants that pay amortized payments for the unfunded actuarial liabilities of the
Fund. The Fund’s annual warrant for FY 2009 totaled $10.7 billion. The Other Defense Organizations General
Fund credits, and subsequently expends, this amount to the MERHCF in accordance with OMB guidance. The
OMB is aware, and approves, of this duplicate reporting. As a result, $10.7 billion is duplicated on the DoD
Agency-wide SBR. As of September 30, 2008, the Fund’s annual warrant was $12.9 billion, which was duplicated
on the DoD Agency-wide SBR for FY 2008.

In addition, the Fund reports Appropriations Received for contributions that the Army, Navy, and Air Force pay.
The Military Departments also include these amounts in their respective Appropriations Received. For FY 2009, the
Fund reported a total of $10.4 billion for the Military Departments, which is duplicated on the DoD Agencywide
SBR. As of September 30, 2008, the Fund also reported $11.2 billion in contributions from the Military
Departments, which was duplicated on the DoD Agency-wide SBR for FY 2008.

NOTE 12. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

 ($ In Thousands)
 RESOURCES USED TO FINANCE ACTIVITIES
                                                                                      2009                2008
       Budgetary Resources Obligated
        Obligations incurred                                                  $   8,290,649      $   7,785,922
        Less: Offsetting receipts (-)                                           (11,752,354)       (20,774,860)
        Net obligations                                                          (3,461,705)       (12,988,938)
    Total resources used to finance activities                                $ (3,461,705)      $ (12,988,938)
 RESOURCES USED TO FINANCE ITEMS NOT PART OF THE
     NET COST OF OPERATIONS:
 Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided:
       Undelivered Orders (-)                                                 $       (10,012)   $        71,850
 Resources that fund expenses recognized in prior periods                                   0        (16,285,468)
 Total resources used to finance items not part of the Net Cost of
 Operations                                                                           (10,012)     (16,213,618)
 Total resources used to finance the Net Cost of Operations                   $    (3,471,717)   $ (29,202,556)
 COMPONENTS OF THE NET COST OF OPERATIONS THAT
     WILL NOT REQUIRE OR GENERATE RESOURCES IN THE
     CURRENT PERIOD:
 Components Requiring or Generating Resources in Future Period
           Other                                                              $    9,467,605     $             0
 Components not Requiring or Generating Resources
          Trust Fund Exchange Revenue                                             (10,717,021)       (11,882,332)
     Other                                                                           (412,200)            (2,092)

 Total components of Net Cost of Operations that will not require or
 generate resources in the current period                                     $    (1,661,616)   $ (11,884,424)

 Net Cost of Operations                                                       $    (5,133,333)   $ (41,086,980)

The following note schedule lines are presented as combined instead of consolidated due to intraagency budgetary
transactions not being eliminated: Obligations Incurred; Obligations Net of Offsetting Collections and Recoveries;
Less: Offsetting Receipts; Net Obligations; and Undelivered Orders.

Components Requiring or Generating Resources in Future Period – Other displays the change in the FY 2009
actuarial liability and the FY 2009 IBNR reserve amount. The actuarial liability amount represents health care
liabilities that are not covered by budgetary resources. The IBNR amount represents an estimate of medical benefits
already incurred by not yet reported to the Department of Defense.


                                                        35
                                                                      Notes to the Principal Statements


Components not Requiring or Generating Resources – Other displays the changes in accounts receivables since the
beginning of both FY 2008 and FY 2009. These changes represent refunds receivable for (1) amounts due from
drug manufacturers as required by the FCP Program, (2) duplicate or other erroneous MERHCF payments made to
contractors for care of the beneficiaries, and (3) copayments from MERHCF beneficiaries for mail order
prescriptions. These refunds receivable are recorded as an offset to expenses. This line also displays the changes in
bad debts for both FY 2008 and FY 2009. These bad debts occurred because erroneous payments made to the
MERHCF beneficiaries or to nonfederal providers of medical services were not repaid.

The MERHCF reported $363.6 billion in health care liabilities not covered by budgetary resources. These liabilities
represent amounts for which the MERHCF has no assets available, nor are these liabilities due and payable, in the
current fiscal year. Refer to Note 8, Military Retirement Benefit Liabilities, for additional details and disclosures.

NOTE 13. BENEFIT PROGRAM EXPENSE
`
The benefit program expenses (BPE) for FY 2009 and FY 2008 are displayed below. Details about these expenses
are provided in the following paragraphs:

                                              Benefit Program Expenses

 ($ In Thousands)                                                                           2009               2008
 A. Service Cost                                                                    $    10,373,852       $ 10,070,293
 B. Period Interest on the Benefit Liability                                             29,118,797         31,340,326
 C. Prior (or Past) Service Cost                                                                  0                  0
 D. Period Actuarial (Gains) or Losses                                                  (18,604,305)        (5,248,219)
 E. Actuarial (Gains)/Losses Due to Changes in Medical Trend Assumptions                 (3,188,424)       (43,899,936)
 F. Total                                                                           $    17,699,920      $ (7,737,536)

The BPE provide components of the change in the actuarial liability from September 30, 2008, to September 30,
2009. The September 30, 2009, actuarial liability is calculated using the components of BPEs as well as the
expected benefit payments during the fiscal year. See Note 8, Military Retirement Benefit Liabilities, for further
details about the change in the actuarial liability. The September 30, 2009, actuarial liability is equal to the
September 30, 2008, liability plus the total BPEs minus the expected benefit payments. The BPE includes normal
(or service) cost, interest cost, and gains and losses. It measures the change in the actuarial liability from one year to
the next (excluding the impact of benefit payments).

In FY 2009, the Period Actuarial (Gains) or Losses component of BPE (Line D) contributed a net gain (liability
decrease) reflecting the net of various gains and losses resulting from experience and changes in assumptions. The
(Gains)/Losses Due to Changes in Medical Trend Assumption component of BPE (Line E) also produced a gain in
FY 2009; however, the new medical trend rate assumptions used in FY 2008 produced a larger gain. Each year, the
MERHCF Board of Actuaries approves the assumption changes.

The Service Cost (Line A) and Interest Cost components of the BPE (Line B) are generally expected to increase
each year. However, actuarial gains and losses always occur as a result of changes in assumptions, new
assumptions, new assumptions, actuarial experience, and/or benefit changes.




                                                           36
                                                                  Notes to the Principal Statements

NOTE 14. EARMARKED FUNDS

BALANCE SHEET                                                                      2009                  2008
Assets
Fund balance with Treasury                                                   $         5,000     $       5,000
Investments                                                                      148,403,475       134,291,659
Accounts and Interest Receivable                                                     424,686            12,486
Total Assets                                                                 $   148,833,161     $ 134,309,145

Liabilities And Net Position
Military Retirement Benefits and Other Federal Employment Benefits           $ 510,286,785       $   500,819,180
Other Liabilities                                                                  122,894               199,816
Total Liabilities                                                              510,409,679           501,018.996
Cumulative Results of Operations                                              (361,576,518)          (366,709,851)
Total Liabilities And Net Position                                           $ 148,833,161       $    134,309,145

STATEMENT OF NET COST
Program Costs                                                                $    17,336,042     $     (8,429,788)
Less Earned Revenue                                                              (22,469,375)         (32,657,192)
Net Program Costs                                                                  (5,133,333)        (41,086,980)
Net Cost of Operations                                                       $     (5,133,333)   $    (41,086,980)

STATEMENT OF CHANGES IN NET POSITION
Net Position Beginning of the Period                                         $ (366,709,851)     $   (407,796,831)
Net Cost of Operations                                                           (5,133,333)          (41,086,980)
Budgetary Financing Sources                                                               0                     0
Change in Net Position                                                       $    5,133,333      $     41,086,980

Net Position End of Period                                                   $ (361,576,518)     $   (366,709,851)

Public Law 106-398, The Floyd D. Spence National Defense Authorization Act for Fiscal Year 2001, authorized the
establishment of the MERHCF. The MERHCF accumulates funds to finance, on an actuarially sound basis,
liabilities of the DoD and the Uniformed Services health care programs for specific Medicare-eligible beneficiaries.
The MERHCF receives its appropriations and funds as an earmarked special fund and uses these resources to
execute its mission and report on resource usage.

The primary financing sources for MERHCF are (1) an annual unfunded actuarial liability payment from the
U.S. Treasury, (2) annual contributions from the Military Services and other Uniformed Services, and (3) interest
earned on investments. Using methods and assumptions approved by the DoD Board of Actuaries, the DoD Office
of the Actuary calculates the annual unfunded liability amount, the annual Military Services payment amounts, and
the rates for the other Uniformed Services. These financing sources are the result of intragovernmental flows.
Contributions in excess of the projected current year health care benefits are invested. These investments and
associated revenue are used to cover future liabilities of MERHCF.




                                                        37
                                                                  Notes to the Principal Statements


NOTE 15. OTHER DISCLOSURES

 The actuarial liability for Medicare-eligible retiree benefits as of September 30, 2009, and 2008 includes
approximately $72.1 billion (14% of total) and $71.0 billion (14% of total), respectively, of amounts reflecting the
actuarial present value of the projected direct-care costs of benefits to be provided by the MTFs to eligible
participants in the MERHCF. Additionally, the reported amounts of program revenues and cost for the year ended
September 30, 2009, include approximately $2.9 billion and $1.7 billion, respectively, and for the year ended
September 30, 2008, include approximately $3.3 billion and $1.7 billion, respectively, of amounts related to the
direct-care costs. Such MTF-related amounts of direct-care costs are estimated by the Fund’s actuaries using data
extracted from various Military Service-specific financial, personnel and workload systems within DoD. With
respect to extracted data, the MTFs do not have compliant, transaction-based accounting systems and, therefore,
cannot report the costs of an individual patient’s care.




                                                        38
          DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND


  OTHER ACCOMPANYING
     INFORMATION




            39
                                                                 Other Accompanying Information


                                                   EXHIBIT 1

                           MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND
                                 ACTUARIAL STATUS INFORMATION
                                   SEPTEMBER 30, 2009, AND 2008

                                                ($ In Thousands)



                                                                             September 30, 2009       September 30, 2008
1   Present value of future benefits


    a. Current inactives                                                          $313,966,215            $307,149,821
    b. Active duty personnel ¹                                                    $158,897,873            $156,814,830
    c. Nonretired reservists                                                      $119,939,882            $116,763,813
    d. Total                                                                      $592,803,970            $580,728,464


2   Present value of future normal
    cost contributions                                                           $ (83,337,551)           $ (80,532,754)


3   Actuarial accrued liability                                                   $509,466,419            $500,195,710


4   Assets 2 (funded accrued liability)                                           $145,850,227            $131,941,068


5   Unfunded accrued liability ³                                                  $363,616,192            $368,254,642



________________________________

1
        The future benefits of active duty personnel who are projected to retire as reservists are counted on line 1c.

2
        The assets available to pay benefits are determined using the amortized cost method (book value) of valuation.

3
        The unfunded accrued liability does not include $820.4 million and $623.5.million for the estimated incurred-
        but-not-reported liabilities as of September 30, 2009, and 2008, respectively, as presented in the Balance Sheet
        as “Benefits Due and Payable” and as discussed in Note 8, “Military Retirement Benefit Liabilities.”




                                                        40
                                                                   Other Accompanying Information

                                                    EXHIBIT 2

                     MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND
          SUMMARY OF FINANCIAL STATEMENT AUDIT AND MANAGEMENT ASSURANCES
                                  SEPTEMBER 30, 2009


Agencies are required to provide certain assurances as to the status and effectiveness of the internal controls and
financial management systems that support the preparation of the financial statements. In the context of the
MERHCF Management Discussion and Analysis, DoD, and not MERHCF, represents the legislative definition of an
Agency. Beginning with FY 2006, as directed in OMB Circular A-123, Management’s Responsibility for Internal
Control, Appendix A, Internal Control Over Financial Reporting, the 24 CFO Act agencies (includes DoD), are
required to provide a separate assessment of the effectiveness of the internal controls over financial reporting as a
subset of the overall Federal Managers Financial Integrity Act (FMFIA) assurance statement. OUSD(C) issued
guidelines to the leadership of DoD Components, including MERHCF, as to how to support this DoD reporting
requirement. TMA management complied with the required guidelines for MERHCF.

In its FY 2009 assessments, TMA management assessed that, except for direct care related material weaknesses
addressed above, the MERCHF (as an OMB designated Financial Statement Reporting Entity (FSRE)) has effective
internal controls to support effective and efficient programmatic operations, reliable financial reporting, and is in
process of implementing corrective actions to become fully compliant with applicable laws and regulations (FMFIA
§ 2). MERHCF FSRE cannot achieve compliance with (FMFIA § 4) for direct care until the Services have
implemented financial systems that comply with (FMFIA § 4). The OUSD (C ) published Financial Improvement
and Audit Readiness Report as of September 2008, indicates a FY 2017 timeline for the Services to achieve (FMFIA
§ 4) compliance.

Except for the direct care-related material weakness discussed above, and documented in TMA’s Annual Statement
Required Under the FMFIA, dated July 7, 2009, and TMA’s non-compliance with OMB Circular A-127, the
MERHCF has effective internal controls over financial reporting.

The Status of FY 2009 Audit Findings and Actions Taken tables include a summary of material weakness (FMFIA
§ 2) and non-conformances (FMFIA § 4), and summary of corrective actions to resolve the material weaknesses and
non-conformances.

Table 1.
Summary of Financial Statement Audit
Audit Opinion                                                                      Qualified
Restatement                                                                          No

Material Weaknesses                                       Beginning    New     Resolved    Consolidated    Ending
                                                          Balance                                          Balance
Lack of U.S. Standard General Ledger Compliant,               3                                               3
Transaction-based Accounting Systems for Direct-care
Costs (Carried Forward and Updated Finding from
Fiscal Year (“FY”) 2005)
Direct Care Cost Data Accumulation (Carried Forward           3                                                3
and Updated Finding from Fiscal Year FY2005)
Total Material Weaknesses                                      2         0         0             0             2




                                                         41
                                                                   Other Accompanying Information


Table 2.
Summary of Management Assurances
                  Effectiveness of Internal Controls over Financial Reporting (FMFIA § 2)
Statement of Assurance                                                 Qualified

Material Weaknesses                           Beginning    New     Resolved   Consolidated   Reassessed   Ending
                                              Balance                                                     Balance
Independent auditor was unable to obtain          3                                                         3
sufficient, appropriate audit evidence from
currently existing non-compliant U.S.
Standard General Ledger transaction-based
accounting systems to support the costs of
direct care provided by DoD-managed
Military Treatment Facilities. (Carried
Forward and Updated Finding from Fiscal
Year (“FY”) 2005)
Total Material Weaknesses                        1             0      0            0             0          1


                         Effectiveness of Internal Controls over Operations (FMFIA § 2)
Statement of Assurance                                                    Qualified

Material Weaknesses                           Beginning    New     Resolved   Consolidated   Reassessed   Ending
                                              Balance                                                     Balance
Independent auditor was unable to obtain          3                                                         3
sufficient, appropriate audit evidence from
currently existing non-compliant U.S.
Standard General Ledger transaction-based
accounting systems to support the costs of
direct care provided by DoD-managed
Military Treatment Facilities. (Carried
Forward and Updated Finding from Fiscal
Year (“FY”) 2005)
Total Material Weaknesses                        1             0      0            0             0          1




                                                          42
                                                                   Other Accompanying Information


                 Conformance with financial management system requirements (FMFIA § 4)
Statement of Assurance              Purchased Care systems conform to financial management systems
                                    requirements; Direct Care Cost systems do not comply with financial
                                    management systems requirements

Non-Conformances                        Beginning      New     Resolved      Consolidated      Reassessed     Ending
                                        Balance                                                               Balance
Independent auditor was unable to           3                                                                    3
obtain sufficient, appropriate audit
evidence from currently existing
non-compliant U.S. Standard
General Ledger transaction-based
accounting systems to support the
costs of direct care provided by
DoD-managed Military Treatment
Facilities. (Carried Forward and
Updated Finding from Fiscal Year
(“FY”) 2005)
Total non-conformances                        1          0          0               0               0             1


        Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                    Agency                  Auditor
Overall Substantial Compliance                         No                     No
1. Systems Requirements                       Yes for Purchased Care; - No for Direct Care
2. Accounting Standards                       Yes for Purchased Care; - No for Direct Care
3. USSGL at Transaction Level                 Yes for Purchased Care; - No for Direct Care

Note: The above uncorrected weakness combines the two reported material weaknesses identified by the
independent auditor in the audit of the FY 2009 MERHCF financial statements. Identification and implementation
of appropriate corrective actions to resolve this one material weakness will result in successful correction of the two
material uncorrected weaknesses indentified in the FY 2009 MERHCF audit.




                                                          43
                                                                 Other Accompanying Information

                                                   EXHIBIT 3

                           MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND
                                     IPIA REPORTING DETAILS
                                        SEPTEMBER 30, 2009

IMPROPER PAYMENTS INFORMATION ACT REPORTING

The Improper Payments Information Act (IPIA) of 2002, as implemented by the OMB Circular A-123, Appendix C,
“Requirements for Effective Measurement and Remediation of Improper Payments,” requires Federal agencies to
review all programs and activities annually and identify those that may be susceptible to significant erroneous
payments. The Department’s FY 2008 review did not identify any programs at risk of significant erroneous
payments in accordance with OMB criteria (programs with erroneous payments exceeding both $10 million and
2.5% of program payments).

RISK ASSESSMENT

The Department’s risk assessment for Military Health Benefits addressed the effectiveness of internal controls for
preventing improper payments (such as prepayment reviews), as well as system weaknesses identified internally or
by outside audit activities. While the Department’s improper payment percentages are low, numerous pre- and post-
payment controls further minimize and eliminate improper payments.

On a quarterly basis, the Department audits statistically valid samples of health care claims. Over the years, these
audits consistently have produced an error rate of less than the 2% performance standard contained in TRICARE
contracts. Errors in health care claims processing potentially can be related to improperly submitted claims by
providers, as well as a minimal degree of human error expected with handling a large volume of claims under the
tight time parameters established by the Prompt Payment Act regulations and the claims processing timeliness
performance standard. The FY 2008 improper payment rate for military health benefits was estimated to be
$178 million or 2%. The actual performance was significantly less: 0.44% or $45.8 million. The 2009 improper
payment rate for military health benefits is estimated to be $240 million or 2%.

Numerous prepayment and post-payment controls are built into the military health benefits’ claims processing
system to minimize improper payments. Every claim is adjudicated against this system of checks and balances.
One control is the prepayment review required under the contract. The contractor uses this strategy to prevent
payment for questionable billing practices. Prepayment review allows for a closer examination of the services
rendered and may require the provider to submit medical documentation to support the services billed. In addition,
the Department of Defense requires the contractor to have an anti-fraud unit to identify and investigate any pattern
of suspicious or potential fraudulent billings. Recoupment from cases identified, combined with proactive case
work are additional benefit dollars returned to the Fund.

STATISTICAL SAMPLING PROCESS

To determine an estimate of the annual amount of improper payments, the Department of Defense uses a statistically
valid method of sampling for the managed care support services contracts and the Medicare dual-eligibility
contractor.

The Department samples data records for review for claims processed by the Medicare dual eligible contractor
quarterly. There are two kinds of payment samples, one for non-denied claims and one for denied claims. For the
Medicare dual eligible contract, the non-denied payment sample will be drawn from all records with government
payments of $1 to $25,000. All records with a government payment of $25,000 and over will be audited. The
denied payment sample will be drawn from all records with a billed amount of $1 to $500,000. All records with
billed amounts of $500,000 and over will be audited. The non-denied sample will be stratified at multiple levels
within the $1 to $25,000 range, and the denied payment sample will be stratified at multiple levels within the $1 to
$500,000 range.




                                                        44
                                                                          Other Accompanying Information


        CORRECTIVE ACTION PLAN

        The Department’s contracts have had payment performance standards for military health benefit claims processing
        in place for many years. The estimate of 2 percent is based on the contract performance standard. However, actual
        results have been consistently less than 2 percent. FY 2008 results reflect an improper payment rate of 0.44%.
        Contractors exceeding the 2% performance standard are subjected to a financial disincentive for erroneous claims
        payments. In addition, the contractors are financially liable for payment of non-allowable claims. This contractual
        design, combined with numerous prepayment and post-payment controls, effectively minimizes improper payments
        and ensures the Government’s risk for improper payments in military health benefits is minimized.

                   MILITARY HEALTH BENEFITS PROGRAM IMPROPER PAYMENT REPORTING


       FY 2008                  FY 2009                FY 2010 Estimated            FY 2011 Estimated          FY 2012 Estimated
Outlays   IP   IP        Outlays   IP    IP          Outlays   IP      IP         Outlay    IP     IP        Outlays   IP      IP
 ($B)    (%) ($M)         ($B)    (%) ($M)            ($B)    (%) ($M)            s ($B)   (%) ($M)           ($B)    (%) ($M)
 $10.4   0.44 $45.8       $12.0     2   $240          $12.7     2    $254         $14.0      2    $280        $15.2     2    $304

        1. The final payment error rate for FY 2008 is 0.44%, which is less than the contract performance standard of 2%
        used in the FY 2008 AFR calculation. The error rate in FY 2008 and beyond is a conservative estimate based on the
        2% contract performance standard.

        2. The FY 2008 outlays include all benefit dollars subject to the audit process. Fee-for-service claims are considered
        susceptible to improper payments as payment is made based upon an individual claim submitted by a provider or
        beneficiary certifying services were provided as billed. Administrative or change order costs are not included, as
        those costs do not fall into the definition of areas susceptible to improper payments.

        3. The FY 2008 outlays do not include:

                 a) The Designated Providers (U.S. Family Health Plan) contracts, through which a set amount is paid for
        each patient’s care on a per member per month basis. The contractor is 100% responsible for improper payments;
        there is no shared risk with the Government. The Defense Contract Audit Agency conducts reconciliations to
        validate correct capitated payments for the enrolled population. Government liability is limited to the amount paid
        to the contractor regardless of the cost of health care services.

                 b) Pharmacy claims. The Department is developing an audit process.

                 c) Foreign claims. The Department is developing an audit process.




                                                                 45
          DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND


 INDEPENDENT AUDITORS’
        REPORTS




           46
